<html>
<title> - A REVIEW OF PAST WILDFIRE SEASONS TO INFORM AND IMPROVE FUTURE FEDERAL WILDLAND FIRE MANAGEMENT STRATEGIES</title>
<body><pre>[Senate Hearing 114-337]
[From the U.S. Government Publishing Office]




                                                
                                                       S. Hrg. 114-337

A REVIEW OF PAST WILDFIRE SEASONS TO INFORM AND IMPROVE FUTURE FEDERAL 
                  WILDLAND FIRE MANAGEMENT STRATEGIES

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION


                               ----------                              

                           NOVEMBER 17, 2015

                               ----------                              


                       Printed for the use of the
               Committee on Energy and Natural Resources

           Available via the World Wide Web: http://fdsys.gov
           
           
           



     A REVIEW OF PAST WILDFIRE SEASONS TO INFORM AND IMPROVE FUTURE
              FEDERAL WILDLAND FIRE MANAGEMENT STRATEGIES
              
              
              





                                                        S. Hrg. 114-337
 
A REVIEW OF PAST WILDFIRE SEASONS TO INFORM AND IMPROVE FUTURE FEDERAL 
                  WILDLAND FIRE MANAGEMENT STRATEGIES

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION


                               __________

                           NOVEMBER 17, 2015

                               __________


                       Printed for the use of the
               Committee on Energy and Natural Resources
               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                    LISA MURKOWSKI, Alaska, Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
MIKE LEE, Utah                       BERNARD SANDERS, Vermont
JEFF FLAKE, Arizona                  DEBBIE STABENOW, Michigan
STEVE DAINES, Montana                AL FRANKEN, Minnesota
BILL CASSIDY, Louisiana              JOE MANCHIN III, West Virginia
CORY GARDNER, Colorado               MARTIN HEINRICH, New Mexico
ROB PORTMAN, Ohio                    MAZIE K. HIRONO, Hawaii
JOHN HOEVEN, North Dakota            ANGUS S. KING, JR., Maine
LAMAR ALEXANDER, Tennessee           ELIZABETH WARREN, Massachusetts
SHELLEY MOORE CAPITO, West Virginia
                    Karen K. Billups, Staff Director
                Patrick J. McCormick III, Chief Counsel
   Lucy Murfitt, Senior Counsel and Natural Resources Policy Director
           Angela Becker-Dippmann, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
        Bryan Petit, Democratic Senior Professional Staff Member
        
        
        
                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Murkowski, Hon. Lisa, Chairman and a U.S. Senator from Alaska....     1
Cantwell, Hon. Maria, Ranking Member and a U.S. Senator from 
  Washington.....................................................     3

                               WITNESSES

Fennell, Anne-Marie, Director, Natural Resources and Environment, 
  U.S. Government Accountability Office..........................     6
Maisch, John ``Chris'', State Forester and Director, Division of 
  Forestry, Alaska Department of Natural Resources...............    26
Covington, Dr. William Wallace, Regents' Professor of Forest 
  Ecology and Director, Ecological Restoration Institute, 
  Northern Arizona University....................................    43
Zerkel, Richard, President, Lynden Air Cargo, LLC................    52
Burnett, Mike, Fire Chief, Chelan County Fire District 1.........    57
Wyss, Jon, Chairman, Okanogan County Long Term Recovery Group....    64

          ALPHABETICAL LISTING AND APPENDIX MATERIAL SUBMITTED

Burnett, Mike:
    Opening Statement............................................    57
    Written Statement............................................    59
    Responses to Questions for the Record........................   128
(The) California Forest and Watershed Alliance:
    Statement for the Record.....................................   278
Cantwell, Hon. Maria:
    Opening Statement............................................     3
    Chart 1-Wenatchee Complex in 2012............................    87
    Chart 2-Behive Reservoir.....................................    89
    Chart 3-Fire Treated Road....................................    91
(The) Corps Network:
    Letter for the Record........................................   283
Covington, Dr. William Wallace:
    Opening Statement............................................    43
    Written Testimony............................................    45
    Responses to Questions for the Record........................   119
Fennell, Anne-Marie:
    Opening Statement............................................     6
    Written Testimony............................................     8
    Responses to Questions for the Record........................   114
    GAO-13-684 Wildland Fire Management: Improvements Needed in 
      Information, Collaboration, and Planning to Enhance Federal 
      Fire Aviation Program Success dated August 2013............   144
    GAO-15-772 Wildland Fire Management: Agencies Have Made 
      Several Key Changes but Could Benefit From More Information 
      About Effectiveness dated September 2015...................   199
Maisch, John ``Chris'':
    Opening Statement............................................    26
    Written Testimony............................................    28
Murkowski, Hon. Lisa:
    Opening Statement............................................     1
Wyss, Jon:
    Opening Statement............................................    64
    Written Testimony............................................    67
    Responses to Questions for the Record........................   129
Zerkel, Richard:
    Opening Statement............................................    52
    Written Testimony............................................    54


A REVIEW OF PAST WILDFIRE SEASONS TO INFORM AND IMPROVE FUTURE FEDERAL 
                  WILDLAND FIRE MANAGEMENT STRATEGIES

                              ----------                              


                       TUESDAY, NOVEMBER 17, 2015

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:01 a.m. in 
Room SD-366, Dirksen Senate Office Building, Hon. Lisa 
Murkowski, Chairman of the Committee, presiding.

  OPENING STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR FROM 
                             ALASKA

    The Chairman. I call to order the meeting of Energy and 
Natural Resources Committee.
    Before we commence with the hearing, I think it is 
appropriate, and I know that on the floor of the Senate at this 
appointed hour, ten o'clock, a 1-minute moment of silence is 
being observed for those that were the victims of the horrible 
tragedy in Paris. So at this moment I would like to observe a 
1-minute moment of silence. [Moment of silence.]
    The Chairman. Thank you.
    This is a pretty somber way to begin, and it is also a very 
somber subject this morning as we talk about the 2015 fire 
season. It was a tragic one. It was punctuated by some 
fatalities. We lost residents who could not escape the flames 
and the brave firefighters who gave their lives to keep our 
communities safe.
    The Okanogan Complex fire in Washington claimed the lives 
of three heroes, Thomas Zbyszewski, Andrew Zajac and Richard 
Wheeler. I want to start by acknowledging them and offering 
prayers to their families.
    Each year the wildfire season seems to include new worsts 
and historical records. For its part 2015 has been marked by a 
relentless wildfire season that has stretched nearly all year. 
According to the National Interagency Fire Center more than 9.4 
million acres have burned through October 30. This year's 
season is among the most devastating years for wildfires since 
reliable records began in 1960, coming close to 2006 when an 
all time high of nearly 9.9 million acres burned.
    Mega fires, which are the fires over 100,000 acres in size 
and incomprehensible just decades ago, are becoming the new 
norm. Five mega fires were burning at the same time in 
September alone.
    The majority of our nation's fires continue to occur in my 
State of Alaska, and this year was no exception. We had over 
five million acres burned in Alaska. This is an area the size 
of the State of Connecticut. Only the 2004 fire season, where 
nearly 6.6 million acres burned, was worse for us.
    This year the fire season in Alaska was also unique and not 
in a good way. We did not have much snow over the winter and 
the spring featured record warm temperatures creating some 
unusually dry conditions and then came the lightning. On one 
day alone, near the summer solstice, lightning struck our state 
around 15,000 times, so over 15,000 strikes in one day. 
Ultimately lightning caused more than half of the more than 700 
fires in Alaska this season.
    At one point this summer more than 200 fires were burning 
in the state, all over the state and all at once. Numerous 
Native Alaskan villages were evacuated because of fires that 
threatened air quality and structures. The thick smoke in 
Fairbanks pushed air quality to hazardous levels, forcing 
outdoor activities to be canceled. Dozens of homes north and 
south of Anchorage were lost. Anchorage spent 24 days at 
preparedness level five. You all on the panel here clearly know 
what level five is, but for those who are unfamiliar, it is the 
highest level. These wildfires drained budgets and required so 
much manpower to battle that officials enlisted the help of 
international crews at times.
    Unfortunately there is no easy solution. We cannot simply 
match the increasing wildfire threat with greater and greater 
suppression force and call it a day. Wildfire suppression and 
its escalating costs are economically, ecologically, and 
socially unsustainable, and the 2015 fire season underscores 
that point.
    We must recognize that many of the same factors that are 
increasing the size, frequency and intensity of wildfires are 
also driving up wildfire suppression costs both in actual 
dollars and as a portion of the Forest Service total budget. 
These factors include excessive fuel loads, due in part to 
decades of fire exclusion, a changing climate, insect and 
disease infestation, severe drought, the spread of invasive 
species and expanding wildland urban interface. But that is not 
all. Operational factors associated with wildfire management, 
our objectives, strategies and tactics, all have significant 
cost implications. This includes the aviation assets that we 
deploy today.
    We spent $2.1 billion fighting fires this season and $4.2 
billion in total on wildfire management. It is not even clear 
where these dollars were spent and whether they were well 
spent. That is due, in part, to the fact that the agencies do 
not bother to conduct reviews of the large, expensive fires.
    The Forest Service has claimed that the wildfire problem is 
a budget problem, but that is probably an oversimplification. 
We all agree that Congress must end the practice of fire 
borrowing, but we just cannot throw money at the problem.
    In the Interior Appropriations bill that I chair the 
Subcommittee on, we provide a fiscally responsible approach to 
end fire borrowing. It would budget for 100 percent of the 10-
year average for fire suppression and provide a limited 
emergency reserve, or contingency fund, for fire fighting in 
the above average years. I think that is part of the solution, 
but the wildfire problem is not just a budgeting problem. It is 
also a management problem, and we have failed to appropriately 
manage our fire dependent forests and fire prone landscapes and 
that has predisposed our forests to mega fires.
    We must work with our state agencies, our local communities 
and the public to increase community preparedness and make our 
forests healthy again. Healthy, resilient forests are fire 
resistant forests. Yet, despite knowing the value of fuel 
reduction treatments in mitigating wildfire risks, increasing 
fire fighter safety and restoring the health of our forests, 
active management is still often met with a series of 
discouraging and near insurmountable obstacles. High upfront 
costs, long planning horizons and regulatory environment 
requirements, including what seem like unending environmental 
reviews, are impeding our ability to implement treatments at 
the pace and the scale these wildfires are occurring.
    These are big problems that will take cooperation and 
commitment to solve. Senator Cantwell and I have agreed to work 
together and with members of this Committee to develop a better 
wildfire management strategy for our country. I think it is 
fair to say that Senator Cantwell and I share the view that 
this is strategy that should be guided by some principles.
    The principles include responsibly funding wildfire 
suppression, ending the unsustainable practice of fire 
borrowing, improving operational efficiencies to ensure the 
availability and effectiveness of the aviation fleet and fire 
fighter safety, increasing community preparedness through Fire 
Wise activities and implementing community wildfire protection 
plans, making the necessary investments in a full array of fuel 
treatments to include not just prescribed fire but also 
mechanical thinning, increasing the use of technology on 
wildfires and reducing paperwork to get needed projects 
implemented in a timely manner.
    We know this type of strategy is necessary because we have 
just endured another terrible fire season that has affected 
many of our home states, many of the people that we know and 
many of the lands and the landscapes that we treasure.
    So this is not just any Tuesday morning here at the Energy 
Committee. This cannot be a review without a purpose where we 
turn the page, close the book and consider our responsibility 
is met for another year. We have a lot of work to do, and we 
need to work together to develop real solutions to the wildfire 
problem.
    With that, I turn to Senator Cantwell.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Well thank you, Madam Chairman, and thank 
you for holding this important hearing. Thank you for the 
witnesses coming today. We look forward to hearing from all of 
you.
    I also want to thank the Chair for allowing us to do a 
field hearing last August in Seattle, Washington that our 
colleague, Senator Barrasso, came out for. We certainly 
appreciate both the field hearing and him joining us for that.
    We learned many things from the hearings that we have had 
so far, and we are going to learn more today. We have learned 
there are actions that agencies can take and that communities 
can take to decrease the risk of forest fires. We learned about 
the benefits of creating surge capacity to respond in these 
cases when we do have extreme events. But what has stood out 
most for me, from one of the witnesses that we had in Seattle, 
Dr. Medler from Western Washington University, was that he 
explained we have not seen the worst yet. This is something 
that requires immediate action.
    I want to thank Jon Wyss and Chief Burnett for being here 
today from the State of Washington. These are two people who 
are intimately familiar with these issues surrounding 
wildfires, particularly given our experience over the past two 
summers.
    In 2014 our state experienced the Carlton Complex, the 
worst fire in our state history. So earlier this year when the 
Committee began work on fire and discussing what we learned 
from that tragedy, we were scheduling listening sessions all 
across the State of Washington about what the Federal 
Government could do better and what we could do to help local 
communities. What we did not realize at the time that we had 
scheduled those meetings is that 2015 was going to be an even 
more dramatic fire season.
    Almost one million acres in my state burned in about a 
month. That is an area the size of Delaware. So in addition to 
severe economic loss to the timber industry, the recreational 
economy, tribes, and the fire fighters in Washington State, who 
suffered a tragic loss, these impacts are unbelievable.
    I want to say that the three Forest Service fire fighters 
that were killed in the line of duty while protecting the 
communities in which they live were the best among us, Andrew 
Zajac, Richard Wheeler and Tom Zbyszewski. A fourth fire 
fighter, Daniel Lyon, was severely burned in the entrapment and 
has been going through recovery. Clearly 2015 was a tragedy.
    As I have traveled across the state looking at various 
issues I heard compelling stories from fire fighters, business 
owners and residents who lost their homes or had to evacuate 
that what we needed to do was to do better. Fire fighters, 
county commissioners, Forest Service people, legislators, all 
came forward with issues about coordination, response, making 
sure that fewer homes burned, making sure our fire fighters are 
safer, and proactively decreasing the intensity of these fires 
so that they can be better managed. I know that the colleagues 
that are present here today have experienced similar fire 
seasons in their states, as Chairman Murkowski just mentioned.
    Unfortunately, there are only so many spots available on 
the witness table, or I am sure that every one of us could have 
filled the whole table with people from our state who are 
stakeholders in this discussion. So before we begin I would 
just like to recognize a couple people who are not at the 
table.
    From Aero-Flite, Mike, if he is here he can wave his hand, 
a company that is in Spokane, Washington. The air tanker fleet 
is very important to how we fight fires and continuing to 
improve that service with the Forest Service giving contracts, 
I think is very important.
    I want to recognize Brian Gunn from the Colville Tribe, who 
is also here. This summer wildfires spread into the reservation 
and destroyed 20 percent of their timber. A quarter of the 
tribe's economy is generated from timber, so to say that this 
was a big deal is an understatement. They lost upwards of $1 
billion of standing timber.
    This hearing is the third in our Committee that we have had 
so far since the wildfires of 2015. I am pretty sure that makes 
a record for the Committee. I think it shows that we are 
serious about getting something done, and I want to thank 
Senator Murkowski for outlining some of the things that she and 
I believe that should be in a bill. Ending the practice of fire 
borrowing so that we actually do more in prevention and 
preparedness up front, improving the efficiencies of our 
operation, ensuring that the fire fighters have the best 
equipment and those in communities that are challenged by how 
broad the map has become have every resource available to them, 
increasing community preparedness through activities such as 
Fire Wise and risk mapping, and investing in fuel treatments 
that we know will make a difference such as prescribed burn or 
mechanical thinning.
    Dr. Covington, I cannot wait to hear from you today about 
this issue particularly because I am very interested and will 
show some maps about thinning success in Washington State and 
where it mattered in prevention. But also just this overlay as 
it relates to where our fires are with ponderosa pine. I really 
want to understand how we are going to protect our forests.
    Increasing our use of technology and including unmanned 
aerial vehicles to give us more information, and for us in the 
central part of the state, it is clear we need a new Doppler 
system to talk about high wind incidents which we certainly 
experienced the day that our fire fighters lost their lives.
    All these are very, very important issues, and I am pleased 
to be working with the Chair on this. We have also had many 
conversations with our colleague, Cathy McMorris-Rodgers in the 
House of Representatives, since her legislative district has 
been front and center in all of this.
    I also want to just say that I know that while we have put 
out a white paper that we discussed in Seattle at our hearing, 
that there are many inputs that we have received along with 
what we are going to hear today.
    I hope, Madam Chairman, that all of us on this Committee of 
Western States can work together, because I think we see that 
those who are represented here today understand that we do not 
want to face the 2016 fire season without better tools, without 
better processes, without better operations to help our 
communities and help our states.
    Thank you very much.
    The Chairman. Well said. Thank you, Senator Cantwell.
    With that we will go to the panel before us. Again we 
appreciate you coming to the Committee this morning and giving 
us your perspective.
    The Committee will be led off this morning by Anne-Marie 
Fennell, who is the Director for the Natural Resources and 
Environment Team at the U.S. Government Accountability Office. 
We appreciate you being here.
    Next we have Mr. Chris Maisch. Chris is the State Forester 
and Director for the Division of Forestry with the State of 
Alaska, very skilled and very much an expert in so many of 
these issues. So we appreciate you traveling to be with us this 
morning.
    Next we have Dr. William Wallace Covington, who is the 
Regents' Professor of Forest Ecology, the Executive Director 
for the Ecological Restoration Institute at Northern Arizona 
University. Thank you for being before the Committee this 
morning.
    Next we have another Alaskan, who will speak to us from the 
air tankers perspective and how we deal with these suppression 
efforts from the air, Mr. Richard Zerkel, who is President of 
Lynden Air Cargo. Thank you for being here this morning.
    We also have Mr. Mike Burnett, who is the Fire Chief from 
the Chelan County Fire.
    Rounding out the panel we have Mr. Jon Wyss, who is the 
Chairman of the Okanogan and Carlton Complex Long Term 
Recovery.
    We have a lot of expertise here this morning before the 
Committee, and we thank you for being with us.
    Ms. Fennell, if you would like to lead off? Please keep 
your oral testimony to five minutes and your full testimony 
will be incorporated as part of the record.

 STATEMENT OF ANNE-MARIE FENNELL, DIRECTOR, NATURAL RESOURCES 
     AND ENVIRONMENT, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Fennell. Chairman Murkowski, Ranking Member Cantwell 
and members of the Committee, I'm pleased to be here today to 
discuss our recent work on wildland fires.
    Wildland fires play an important ecological role but cost 
billions each year and result in damage and loss of life. As 
you know the 2015 fire season has been especially severe with 
over nine million acres burned.
    The Forest Service and Interior are responsible for 
wildland fire management on Federal lands including contracting 
for aircraft to help suppress fires. Increased fire intensity 
has prompted agency efforts to try to better manage fires. 
Understanding the effectiveness of these efforts takes on a 
heightened importance since these agencies have obligated $8.3 
million over 6 years to suppress fires.
    My statement today focuses on one, how the Forest Service 
and Interior assess the effectiveness of their wildland fire 
management programs, and two, the Forest Service efforts to 
modernize the large air tanker fleet and challenges in doing 
so. My testimony is based on reports we issued in September 
2015 and August 2013.
    First, Forest Service and Interior assess the effectiveness 
of their wildland programs in several ways including through 
performance measures, efforts to assess particular activities 
and reviews of fires. In our September report we found that the 
Forest Service and Interior acknowledged their performance 
measures needed improvement and were developing new ones. In 
addition the agencies are undertaking efforts to assess 
activities to reduce hazardous vegetation that can fuel fires.
    However, the Forest Service and Interior have not 
consistently followed agency policy in selecting and reviewing 
the fires to determine agency effectiveness in responding to 
fires. Their policies generally direct them to review each fire 
involving Federal expenditures of $10 million or more. Agency 
officials told us that these policies over emphasize cost 
rather than effectiveness in responding to fires.
    The agencies, though, have not developed specific criteria 
for selecting fires. For example, Forest Service officials told 
us that they judgmentally select fires based on such broad 
criteria as national significance. Accordingly, the Forest 
Service reviewed five fires that occurred in 2012 and ten that 
occurred in 2013. But given its broad criteria it's not clear 
why the Forest Service selected these fires and not others such 
as the 2013 Rim Fire which burned more than 250,000 acres and 
was the costliest fire to suppress that year.
    We concluded that by developing criteria for selecting and 
reviewing fires the agencies may obtain useful information 
about effectively responding to fires. As a result we 
recommended in our September report that the Forest Service and 
Interior develop specific criteria for selecting and reviewing 
fires and update their policies accordingly. The agencies 
generally agreed.
    Second, in our 2013 report we found that the Forest Service 
faced challenges in modernizing its fleet of large air tankers 
which declined from 44 in 2002 to eight in 2013. Specifically 
we found that the Forest planned to modernize its fleet by 
obtaining aircraft from various sources over the near, medium 
and long term but each component of this approach faced 
challenges. Some of these challenges persist while others are 
less relevant today.
    For example, the Forest Service had awarded contracts for 
seven next generation large air tankers but as of 2013 only one 
had completed necessary Federal approval and certification 
processes. Agency officials told us that they now have 20 
privately-owned, large air tankers under contract and another 
seven air tankers transferring from the Coast Guard.
    In conclusion, the increasing severity and cost of wildland 
fires highlights the importance of Federal agencies 
continuously and systematically assessing the effectiveness of 
their approaches so as to identify possible improvements in 
combating wildland fires in an ever changing landscape.
    Chairman Murkowski, Ranking Member Cantwell and members of 
the Committee, this concludes my prepared statement. I'm happy 
to respond to questions.
    [The prepared statement of Ms. Fennell follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
            
    The Chairman. Thank you, Ms. Fennell.
    Mr. Maisch, welcome.

    STATEMENT OF JOHN ``CHRIS'' MAISCH, STATE FORESTER AND 
 DIRECTOR, DIVISION OF FORESTRY, ALASKA DEPARTMENT OF NATURAL 
                           RESOURCES

    Mr. Maisch. Good morning, Chairman Murkowski and Ranking 
Member Cantwell and members of the Committee. My name is Chris 
Maisch. I'm the State Forester and Director of the Alaska 
Department of Natural Resources Division of Forestry and past 
president of the National Association of State Foresters 
(NASF). The NASF represents the directors of the state forestry 
agencies in all 50 states, eight territories and the District 
of Columbia.
    This was another difficult wildland fire season for us 
nationally, and in Alaska it will go down in the record books 
as the second worst season for acres burned. Approximately 5.1 
million acres or about 54 percent of the 9.4 million acres that 
burned nationally this year were in Alaska. The worst fire 
season on record for Alaska occurred just over a decade ago at 
6.4 million acres a year.
    And if you would, please look at Figure 1 in your handout. 
As you examine the graph you will see a dashed line that 
indicates the rolling 11-year average for acres burned, and you 
can see that 2004 was the tipping point for the state. The 
workload, as represented by acres burned, has doubled from the 
previous long term average and this past season underscored the 
type of wildland fire season we are faced with on a more 
frequent basis.
    I also have to tell you a personal story. It was the year 
my red beard turned grey in 2004. [Laughter.]
    Our season began this year with two large urban interface 
fires, the Sockeye near Willow and the Card Street near 
Soldotna. The Sockeye fire was initially attacked at two acres 
and was 1,000 acres by the end of the day, and by the end of 
the second day it was 9,000 acres. Unfortunately over 100 
structures were lost including 55 primary residents.
    These incidents were a sign of things to come, and in mid-
June in a 7-day period over 61,000 lightning strikes ignited 
295 fires. And that's Figure 2 in your handout. By the end of 
the season 45 states and two Canadian provinces had provided 
resources to Alaska fires.
    While all this activity was taking place in Alaska, the 
lower 48 season began to develop into a more active and 
challenging series of incidents. Many of the Western states, 
particularly Oregon, Washington and California, were having 
another difficult fire year.
    So what did we learn from this past season and what can we 
do to address these growing problems?
    Communities at risk. In FY2013 the total number of 
communities at risk from wildland fire in the U.S. was 72,000. 
The NASF is a key partner in the development and implementation 
of the National Cohesive Wildland Fire Management Strategy and 
its three primary goals: restore and maintain resilient 
landscapes, develop fire adapted communities, and provide 
efficient and effective responses to wildfires.
    I'd like to illustrate the importance of these objectives 
by sharing a story about the Funny River fire from the 2014 
Alaska fire season. The Kenai National Wildlife Refuge has been 
creating fuel breaks. These are large landscape level projects 
designed to protect homes, businesses and other values at risk 
should a fire start on the refuge and move toward the 
community. Take a look at Figure 4 for a picture of one.
    These advanced preparations paid off and in the spring of 
2004 a lightning initiated fire threatened the outskirts of 
Soldotna. The fuel breaks made all the difference. The call 
came in around midnight that the fire was going to hit the 
Funny River Road. By the time crews arrived there was not much 
time to start a burn out to rob the approaching fire of fuel. 
The fuel breaks slowed the fire and allowed crews to safely and 
successfully light a burn out. Over 2,400 structures were 
protected with an assessed value of more than $250 million.
    Next I'd like to talk briefly about another topic, and this 
topic has to do with our aviation programs. An ongoing problem 
for many states with wildland fire aviation programs is the 
issue of carding both individual pilots and aviation platforms.
    Both the Forest Service and the Department of Interior, 
through their Office of Aircraft Services, require additional 
verification of any aviation assets that will be used on a 
Federal fire. The two agencies are not well coordinated in this 
effort despite using the same carding standards for 
certification and this caused some real problems during the 
fire season.
    In my written testimony I've listed several specific 
examples to illustrate the issue, but I'd like to share two 
with you from my home state. A State of Alaska contract 
helicopter that is based out of California had been carded at 
the beginning of the fire season by the Forest Service and had 
to be re-carded by OAS when it reported to Alaska for work 
later in the summer. Also in Alaska two National Guard 
Blackhawk helicopters doing bucket work on a Forest Service 
fire were not utilized for a second mission when it was 
determined they were not carded.
    These examples illustrate some of the challenges faced by 
states this season and the Federal agencies should engage State 
forest agencies as equal partners to update the National 
Wildland Fire Aviation Strategy with an efficient and 
consistently implemented approval process.
    I see my time is short so I'd encourage you to examine two 
other general topics in my written testimony where I've made 
some recommendations for improving or maintaining programs that 
help grow and maintain response capacity and the need for more 
proactive forest management to help address some of the 
underlying causes of this problem.
    In conclusion, thank you for the opportunity to appear 
before the Committee today. My fellow state foresters and I 
stand ready to assist the Committee at finding ways to address 
the challenges we all face as the wildland fire problem 
continues to grow and consume larger and larger portions of our 
State and Federal budgets.
    Thank you.
    [The prepared statement of Mr. Maisch follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
       
    The Chairman. Thank you, Mr. Maisch.
    Dr. Covington, welcome.

STATEMENT OF DR. WILLIAM WALLACE COVINGTON, REGENTS' PROFESSOR 
    OF FOREST ECOLOGY, AND DIRECTOR, ECOLOGICAL RESTORATION 
             INSTITUTE, NORTHERN ARIZONA UNIVERSITY

    Dr. Covington. Chairman Murkowski, Senator Cantwell, 
members of the Committee, thank you so much for the opportunity 
to testify before you today about a problem that's important to 
all of us. It's been important to me for almost 50 years now.
    My name is Wally Covington. I'm Regents' Professor of 
Forest Ecology at Northern Arizona University (NAU) and 
Executive Director of the Ecological Restoration Institute 
which was established in 2004 by Federal authorizing 
legislation. We have three institutes, one at Arizona, one at 
Colorado and one at New Mexico. All of them, working together 
to provide the best available information that can be had for 
restoring forest health and preventing the kinds of devastating 
fires that we're talking about today.
    Being at NAU for over 40 years now I have had the 
opportunity to teach fire ecology and management, wildlife 
forest operations, virtually any topic in the area of forestry 
and I've also conducted research, primarily fire-based 
research, confronting the problem of steadily increasing 
wildfires.
    In 1976 I'd been there for just a year when my house was 
threatened by a fire which was then called the biggest and most 
devastating fire in Arizona history. It was almost 4,700 acres. 
And then during this 40 years I've seen these increasing 
gradually, you know, to 10,000, 20,000, 50,000, and now 
hundreds of thousands of acres.
    At no great surprise we've seen a couple of things 
happening.
    One is that we see fuel building up in the understory of 
frequent fire forests, like Ponderosa Pine forests. And then in 
forests that naturally have catastrophic fires like Lodgepole 
Pine, Spruce, Fir, interior Alaska forests, we see landscapes 
becoming more and more homogonous. So larger and larger patches 
of the land are available to burning.
    The other thing that has driven this clearly has been an 
increase in the severity and duration of fires, of the fire 
season. We're now seeing fires burn in at times of the year 
that are completely unprecedented. We have fires now, we've had 
fires in Arizona called the January fire and the February fire 
because we never had fires during that period of time. And now 
they're coming. They can burn just about any time of year.
    So my testimony then has five major points, and I'm just 
going to highlight that briefly.
    The disruption of natural fires has resulted in a shift in 
fire regimes and frequent forest types like Ponderosa Pine from 
surface fires to crown fires. The attempted suppression of fire 
in areas that are naturally catastrophic fires, like I 
mentioned before, has resulted in more homogonous landscapes 
that require heroic efforts to try to suppress.
    My final point is that the research has shown that there 
are things we can do about it. One in crown fire regimes where 
fires are natural, we can break up fuel continuity with fire 
breaks. You thin it out. You make it so that instead of a 
million acres being available to burn, maybe you have 50,000 
acres available to burn. That's one approach.
    In frequent fire forests you need to thin across the 
landscape and remove the excess trees that have come in since 
fire suppression, conserve the old growth trees and then start 
burning on a natural cycle. In that way these forests are 
consistent with their evolutionary environment, no threat to 
endangered species. Watersheds are protected and so on.
    We've looked at fires post fire. We've had, as you know, 
some very large fires in Arizona, half million acres plus. And 
one of the projects that has been particularly instructive to 
us was to look at the wall of fire, post wall of fire, look at 
what happened there and then use a Forest Service developed 
fire behavior models to determine what the fire behavior would 
have been had treatments been put in place beforehand, 
different treatments then we had.
    What we found was that if you just focused on urban 
wildland interface treatments, you could reduce the fire size 
by about 12 percent. You could reduce flame lengths by about 6 
percent. However, if you strategically located these treatments 
across the entire landscape, you could reduce the size of the 
area burned under high severity by 40 percent and flame lengths 
by 30 percent.
    So in closing I'd just like to say that there is strong 
science available to help inform how we can do these preventive 
treatments, and using that science we have demonstrated, as 
have others, time and again that an ounce of prevention is 
worth a pound of pure. If you invest up front you can save 
houses, you can protect lives, and you can restore landscapes 
for current and future generations.
    Thank you.
    [The prepared statement of Dr. Covington follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
        
    The Chairman. Thank you, Dr. Covington.
    Mr. Zerkel, welcome.

            STATEMENT OF RICHARD ZERKEL, PRESIDENT,
                     LYNDEN AIR CARGO, LLC

    Mr. Zerkel. Madam Chairman, members of the Committee, thank 
you for this opportunity to discuss aerial firefighting policy 
with you today.
    My name is Rick Zerkel, and I'm the President of Lynden Air 
Cargo, an all cargo operator of L382G aircraft based in 
Anchorage, Alaska.
    Lynden's seven aircraft are the civilian version of the 
Lockheed C130 and are operated under Federal Aviation 
Administration Part 121 Air Carrier Regulations, the same 
requirements followed by all major U.S. airlines including 
Delta, American and United. This is the highest safety standard 
under FAA regulations.
    The U.S. Forest Service is currently operating one C130H 
under public aircraft rules and plans to add more. This is in 
direct conflict with the findings of the 2002 Blue Ribbon panel 
report to the Forest Service titled, ``Federal Aerial 
Firefighting: Assessing Safety and Effectiveness.'' And I'd 
like to read a couple of those findings real briefly.
    Under Finding 3, Aircraft. Under the current system of 
aircraft certification, contracting and operation key elements 
of the aerial wildland firefighting fleet are unsustainable. 
The FAA has essentially said. ``It's a public use aircraft. 
You're on your own.''
    Under Finding 6, Certification. The Federal Aviation 
Administration has abrogated any responsibility to ensure the 
continued airworthiness of public use aircraft including ex 
military aircraft converted to firefighting air tankers. 
Although these aircraft are awarded FAA type certificates, the 
associated certifications do not require testing and inspection 
to ensure the aircraft are air worthy to prepare for their 
intended missions. The panel found that the Forest Service and 
BLM leaders do not have a good understanding of the FAA 
certification and oversight rule regarding public use aircraft. 
Just like the Blue Ribbon panel, we are opposed to the U.S. 
Forest Service operating a government-owned airline under 
public aircraft format for the purpose of fighting wildfires 
when qualified civilian aircraft are available. Lynden spent 
substantial capital in one year complying with the regulatory, 
technical and physical conversion of one of our Hercules in 
order to lease to a qualified operator under the next 
generation 2.0 solicitation. A very tight timetable and rigid 
requirements resulted in our aircraft being rejected while the 
U.S. Forest Service operated the first of seven C130H aircraft 
equipped with an obsolete dispersion system and operated 
without FAA oversight. By necessity the Lynden aircraft was 
deployed to Australia where it is in service to the National 
Aerial Firefighting Center.
    Our message this morning can be summarized in three main 
points.
    First, the commercial aerial firefighting industry is 
entirely capable of providing all of the Forest Service large 
air tanker requirements at considerably less expense than the 
current planned use of the C130H aircraft.
    Second, the acquisition and use of the C130H, in this 
depends on the structure of the program, may be in conflict 
with Federal acquisition regulations and the Economy Act.
    Most importantly though, the non-regulated, public aircraft 
format proposed for the government-owned large air tanker fleet 
is inherently less safe than the rigorous standards a 
commercial fleet must adhere to and has set an unfair double 
standard. This double standard resulted in the most capable and 
safest firefighting aircraft being deployed elsewhere while an 
unregulated and expensive government aircraft fought fires in 
our country.
    More importantly we believe that regulatory certification 
and safety standards mandated by the FAA been established for a 
sound reason, to mitigate the possibility of loss of life and 
property. These standards should be applied to all aircraft 
operating in the harsh environment of aerial firefighting 
without exception.
    As we speak it appears the Forest Service intends to 
operate the C130Hs under the public aircraft category accepting 
responsibility for their continuing airworthiness and for 
certifying the design safety of the retardant tank 
installation. If the Coast Guard is retained as the engineering 
authority, the expertise of the FAA is completely removed from 
the process.
    The Forest Service has been very specific that all 
commercial large air tankers be modified in accordance with the 
very demanding and time consuming FAA certification process. 
Now the industry accepts these parameters and the time and 
expense it involve, but we strongly disagree the Forest Service 
should waive this requirement for itself and opt for the less 
stringent public aircraft option. There should be one safety 
standard for all aircraft involved in aerial firefighting and 
it should be the most robust safety standards contained in the 
FAA regulations.
    Lynden Air Cargo provides the following recommendations. 
Number one, commercial aircraft operators, including Lynden and 
others, are available and ready to meet aerial firefighting 
requirements of the Forest Service. We urge the Committee to 
provide direction to the Forest Service to utilize available 
and qualified aircraft prior to employing any government-owned 
aircraft. The U.S. Forest Service should be required to certify 
any aircraft they do operate, certify and maintain the aircraft 
and dispersant systems to the same rigorous standards as 
industry. And Number three, no funds should be authorized or 
appropriated to the Forest Service to acquire or upgrade 
additional aircraft until private industry has had an 
opportunity to respond to a final round of the next generation 
solicitation. As long as commercial operatives can meet the 
Forest Service requirements the Forest Service should refrain 
from competing.
    Madam Chairman and members of the Committee, I welcome your 
questions.
    [The prepared statement of Mr. Zerkel follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
 
    
    The Chairman. Thank you, Mr. Zerkel.
    Mr. Burnett, welcome.

            STATEMENT OF MIKE BURNETT, FIRE CHIEF, 
                 CHELAN COUNTY FIRE DISTRICT 1

    Mr. Burnett. Thank you very much, Madam Chair and Senators. 
Thank you for the opportunity to offer this testimony to the 
Committee.
    My perspective comes from that of a Fire Chief in North 
Central Washington as well as an incident management team 
member as a planning section chief, one of the type one teams 
that are put together on a national basis.
    The fire season for us in our county started in late June 
with the Sleepy Hollow fire in Wenatchee. We had 30 homes that 
were lost and three warehouses. Followed by the next tragic 
fire which was the Reach fire in Lake Chelan. The Reach fire 
combined with the other fires in the area became part of the 
Chelan Complex that grew to almost 90,000 acres and destroyed 
51 homes and an additional three warehouses. Five days later we 
had the tragic loss of three firefighters outside of Twist, all 
that's happened in North Central Washington.
    The 2015 fire season was also my busiest year as an 
incident management team member. Our team was deployed to four 
different fires, the Newby Lake fire which came out of Canada 
into Northern Washington, the National Creek Complex fire in 
Crater Lake National Park and then North Central Washington 
again for the North Star fire and the Tunk Block fire.
    Efforts are being made to address the growing costs and 
severities of wildfires. On a regional level the Okanogan/
Wenatchee National Forest, BLM, the Washington Department of 
Natural Resources and all of the local fire districts have 
worked together to ensure that we work more collaboratively 
when a fire occurs.
    Recently our community hosted a one day summit titled, 
``The Wildfire and Us.'' The goal of the summit was to develop 
a regional approach to reduce the risk of wildfires. Attended 
by approximately 500 residents it was a great success and 
illustrated the interest that people in our region have on the 
subject.
    Locally Chelan County Fire District 1 has established a 
connection with the Forest Ridge Wildfire Coalition. Our 
department has partnered with the Forest Ridge Coalition to 
assist them with grant funding for fuel reduction projects, 
participates with their Fire Wise community outreach and has 
initiated an alert system to notify their board members who in 
turn activate their phone tree.
    From a local perspective if we're to improve our ability to 
respond to wildfires, I believe that we need to address four 
issues: increase our efforts on education and prevention, 
support quicker initial attack, continue fuel reduction 
efforts, and allow for earlier utilization of air resources.
    Education and prevention needs to occur on a local level. 
Our firefighters are part of our community and they're trusted, 
respected and capable of providing the education to the public. 
The problem is most rural fire districts have limited staffing 
due to funding. The Sleepy Hollow fire that I referenced 
earlier had approximately 150 firefighters assigned to it, of 
which 120 of them were volunteers.
    Any Federal funding to support a wildfire education and 
prevention program would pay substantial dividends. Training 
local firefighters to perform home assessments, cost shares on 
hardening homes, conducting evacuation preparedness drills and 
education on the value of beneficial fires are all examples of 
a good prevention program. The value of a prepared community 
translates directly to a safer environment for firefighters.
    Next we need to augment the initial attack capabilities of 
local resources. I measure initial attack response times in 
minutes and catching a wildfire in hours. Local jurisdictions 
need resources available to them and much quicker than what 
wildland agencies are currently able to provide. We have--we 
need funding for the seasonal firefighters to be available on a 
local level so that the initial attack can be more robust and 
more rapid. These seasonal hires could also be used to enhance 
the community's outreach with a focus on building a more fire 
adapted community.
    We need to continue the fuel modification efforts. The 
treatment area near the Beehive Reservoir just outside of 
Wenatchee is a great example of how it can reduce the impacts 
of wildfire. The Peavine fire in 2012 burned through the area, 
stayed on the ground as a surface fire and was stopped on a 
Forest Service road system.
    And last, the use of aviation resources early on can keep a 
small fire from becoming another expensive, large fire. 
Unfortunately as an incident commander from a local fire 
district I have to rely on the Forest Service or a state duty 
officer to arrive on the scene, make a determination if the 
fire is in their jurisdiction or a threat to their jurisdiction 
before a helicopter can be ordered. Most fire districts cannot 
afford the cost of air attack resources. If the State and 
Federal Government want the fire extinguished when they are 
small and manageable, we need the resources to do the job. Give 
the local fire chief the authority to call for them when 
they're needed and have the State or Federal Government pay for 
it so that the local fire district is not financially 
devastated.
    I provided my perception of the complex issue. By no means 
do I feel that the system is broken; however, there are 
opportunities to improve our efforts via the funding for rural 
fire departments, enhancing education and prevention strategies 
and continuing fuel reduction efforts.
    In closing I want to thank the Committee again for hearing 
my testimony and I appreciate the opportunity to provide a 
voice in this important discussion.
    [The prepared statement of Mr. Burnett follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
        
    The Chairman. Thank you, Chief.
    Mr. Wyss, welcome.

  STATEMENT OF JON WYSS, CHAIRMAN, OKANOGAN COUNTY LONG TERM 
                         RECOVERY GROUP

    Mr. Wyss. Senator Murkowski, Senator Cantwell and members 
of the Committee, thank you for holding this hearing today.
    I was born in Thermopolis, Wyoming, son of a seventh and 
eighth grade science teacher and raised in Worland, Wyoming 
just east of Yellowstone National Park. Growing up in Wyoming 
allowed me to have great respect for our natural environment, 
natural resources, natural parks and people. It also allowed me 
to see my first wildfire disaster in 1988 when Yellowstone was 
set ablaze by a lightning strike. Who knew 27 years later I'd 
be in the middle of back-to-back wildfires in Eastern 
Washington which have destroyed over 500 structures in a 
community with less than one percent vacancy rate.
    After graduating high school I attended college in Texas, 
and I worked for the U.S. Bankruptcy Trustee offices in four 
separate states, then served as a Chief Deputy Assessor in 
Spokane County and even served three days as a state senator 
when Senator Benson was on military leave. I now work for my 
wife's family company, Gebbers Farms, who provided suppression 
resources in 2014 and in 2015. We also lost 7,000 acres of our 
private timberlands that abut the Forest Service and DNR.
    My upbringing and background and Chair as the Long Term 
Recovery Group give me a perspective at looking how these fires 
disrupted our communities. The 2015 Washington wildfires 
consumed one million acres and consisted of eight fires. The 
fire storms called multiple level 3 evacuations including my 
own home. When it came time to evacuate not all the memories 
could be packed up, not all the animals could fit in one 
trailer and so gates swung open, fences were cut and animals 
were left to fend for themselves.
    When people could return some came back to their homes 
standing. Others lost everything including their animals, only 
to be known by the bangs tag in the dead animal's ear. Then as 
the fires raged on and the winds picked up we heard over the 
radio a call that no firefighter ever wants to hear. We have 
seven firefighters trapped.
    On that fateful day the bell rang for the last time for 
three brave souls, excuse me, as they tried to escape. We pay 
our respects to the victims and their families where they 
sacrificed everything.
    At the time Washington State's FEMA application, an 
estimated $123 million in suppression costs were expended. We 
question if some of these costs could have been avoided with 
better real time weather information. The National Weather 
Service Doppler radar network has a gap in coverage in our 
state where we can't see below 10,000 feet in Chelan, Douglas 
or Okanogan Counties where most of these fires occurred.
    In Washington State the U.S. Forest Service has four times 
more land than that owned by the state. Over the last 27 years 
we've seen a change in forest management practices and a 
decline in timber harvest in our state. By not allowing fires 
to burn as they historically have or thinning out all the trees 
that have resulting growing up we've increased the fuel load 
and lowered the timber value and increased chances for massive 
wildfire.
    After back-to-back fires many are saying log it, graze it 
or watch it burn. But we do not want to promote unabated 
logging and landscape alterations. Common ground can be found 
on these issues.
    A local rancher and forester told me, ``We must remember, 
fire is good for the environment when it can burn along the 
ground in a controlled manner. Fire is not good when it races 
through untreated corridors of riparian area that have been 
untouched for 30 years leading to bad fire. These conditions 
can be changed with proper management that isn't paralyzed by 
incessant threats and appeals. It's not a zero sum game where 
these disasters have to happen before we hit the reset 
button.''
    What lessons can and have we learned from the fires?
    Lesson one. It starts here, right here today is what 
decides it all. The Committee hearing and the comments from 
those testifying will be decided where we go in the future. It 
starts right here with you, the elected officials who can pass 
legislation and have oversight so this doesn't happen again. It 
starts from the agencies wanting to make sure the changes that 
are needed are being bold in their choices to ensure this 
doesn't happen again.
    For example, on this summer's fire near me a state 
contracted CAT was being used to build a fire suppression line 
through state and private lands. When the CAT and driver hit 
the Forest Service grounds the CAT was stopped, stopping 
suppression activities because the CAT didn't have a Federal 
certification.
    Lesson two. For the first time in decades Washington put 
out a call for volunteers to come help fight fires, but we 
didn't have enough fire-trained bosses to lead those 
volunteers.
    Lesson three. The land is precious. What we can all agree 
is the land is precious. We've learned over the years that it's 
expensive to manage lands, but even more so to repair them 
devastated by fire.
    It's time we end fire borrowing and put the money back into 
the proper management of lands to make our lands healthier, our 
forests healthier and our national, our natural resource 
economy vibrant in our local and tribal communities.
    What are the cascading impacts of wildfire in our 
communities? As you heard 20 percent of the managed timber 
lands of the Colville Reservation burned with up to $1 billion 
in value. The Spokane Tribes estimated in the Carpenter Road 
fire they lost $1 million of timber. Citizens of this great 
nation are owners of the land. It ought to mean something.
    After the Carlton Complex fire the State House passed 
Representative Joel Kretz's bill, House Bill 2093, unanimously. 
Passage of this bill was important as on August 14th the 
lightning strike struck in the Carlton Complex donut hole, as 
we call it. The Paradise fire was threatening 22,000 acres of 
which half was Forest Service ground.
    Gebbers Farm mobilized the necessary equipment to surround 
the fire, contain it from spreading, utilizing the new law. 
What could have been a 22,000 acre fire was 2.7 acres and out 
immediately.
    I would be remiss if I didn't thank the Forest Service, 
USDA, Department of Interior, FEMA and a host of other Federal 
agencies who have worked closely with our long term recovery 
group to assist our community in recovery efforts.
    Last, Senator Cantwell, we appreciate that you held the 
meeting in Wenatchee and then co-hosted a meeting in Spokane 
with Representative Morris Rogers. The meetings with various 
fire chiefs, industry leaders and elected officials kept this 
issue in the forefront and has led to ideas gathered that will 
lead to change.
    Right here today we can make a difference, and right now 
it's up to us.
    Thank you for your time.
    [The prepared statement of Mr. Wyss follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
     
    
    The Chairman. Thank you, Mr. Wyss. Your testimony reminds 
us that there are true consequences, unfortunately, very tragic 
consequences when we fail to manage properly. There is a lot of 
discussion around these halls about needing to end fire 
borrowing, and it is more than just about money. We have to 
make sure that we have the resources, but I think we also 
recognize that we have some management issues that we have to 
deal with. We need to make sure these resources that we direct 
are spent wisely.
    So to listen to some of what you have just pointed out, 
what Mr. Maisch has pointed out, what Mr. Zerkel has pointed 
out, in terms of the lack of coordination, the double 
standards, the failure to manage some of what we are looking 
at, these are some of the concerns that I hope we will get out 
on the table today as we try to address the bigger picture that 
we are facing and again, the ever increasing threat to our 
forests.
    I wanted to ask a little bit about aviation coordination. 
Mr. Maisch, you brought it up initially, and I think, Ms. 
Fennell, you alluded to it a little bit with your discussion 
about the aviation assets.
    It is really discouraging, extraordinarily discouraging, to 
hear that you have different standards for aircraft used for 
fire suppression between the Forest Service and the Department 
of the Interior and that you can literally be poised to move in 
to address the fire and you are held back because you do not 
have the proper certification. You do not have the aircraft 
carded.
    How do we get around this? Mr. Maisch, you have been 
dealing with these different standards and you see how it 
impacts the efficiency and the ability of our agencies to 
effectively engage in these fire suppression efforts. What do 
we need to do here? It should not be this hard, and we have had 
hearings before this Committee that I have been part of where 
we say, particularly in a state like Alaska where you have got 
your BLM lands, you have your Forest Service lands, you have 
your State lands, and you have tribal lands. The fire does not 
care whose land it is. The fire is going to go where the fire 
is going to go.
    Why can't we do a better job with this interagency 
coordination? What do we need to do? I will start with you, Mr. 
Maisch, and anyone else that would like to contribute is 
welcome to join.
    Mr. Maisch. Ah yes, thank you, Senator, for the question.
    It's a good question but unfortunately it's not an easy 
solution. We've been working on this for several years to try 
and streamline and get the two agencies to basically have a 
seamless process that if one agency cards a ship, it's good to 
go. It's not another cooperator letter or another carding 
process that it has to go through. They are carding to the 
exact same standards, so it's very perplexing.
    The Chairman. Then if they are carding to the same 
standards, why do you have to have multiple cards or multiple 
certifications? That makes no sense.
    Mr. Maisch. That's an excellent question. I wish I had an 
answer for you on that, but we've been frustrated for years. 
And you see the about eight examples we gave, specifically in 
the written testimony, about other examples around the country. 
Incidents happened in Oregon, Nevada, Alaska, Montana. So it's 
not just a one off situation, unfortunately.
    And the point I made about treating the states as equals 
and allowing them to basically modify the agreements we 
currently have with the Federal Government to reflect that if 
one agency does the process and approves the ship and the 
pilot, it's basically good to go across the board. And it's 
basically some bureaucracy there.
    The Chairman. Does anyone else have an answer for how we 
address it? I hear the frustration. We all have the 
frustration, but it ought not be this hard and recognizing that 
we do have the same standards that should be okay.
    What Mr. Zerkel raised with the standards that we have 
between the commercial aircraft and the government-owned 
aircraft that, to me, is absolutely unacceptable. You go with 
your highest standard, and those set by the FAA, it seems to 
me, makes sense. But to have safety standards that are less, if 
a government-owned aircraft verses a commercial aircraft, we 
have got to get that one worked out.
    Ms. Fennell, do you have any observations based on your 
reviews?
    Ms. Fennell. We haven't looked specifically at the carding 
issue that is mentioned here, but we did note in our reports 
that there are challenges associated with collaboration amongst 
the agencies. And in fact, for one of our reports we did have a 
recommendation where we called for enhanced collaboration 
amongst the agencies in terms of looking at the performance of 
aircraft.
    But to date--
    The Chairman. We have been doing that for years. This is 
not a case of first impression here. This has been going on for 
years. I am just stunned that we are not any better, not 
further along.
    Let me turn to Senator Cantwell and then we will come back 
for a second round of questions.
    Senator Cantwell. Thank you, Madam Chairman.
    There are a couple things I wanted to mention before I ask 
questions.
    First of all, Mr. Wyss, thank you and Gebbers for 
everything you did in the Carlton Complex. I think you are 
talking in testimony about so many things. You mentioned it, 
but I do not think it really is crystal clear what you were 
saying that is that you and individual citizens and employees 
of Gebbers basically went out and held the line and really 
prevented a lot more acres from burning and did an incredible 
job of also helping the Town of Pateros. So thank you, and 
thanks for being here.
    Chief Burnett, thank you so much for everything that you 
have done over these fire seasons and for helping us illuminate 
some of the issues about what I have heard on the ground in 
Washington State that I just call hasty response, which is just 
how can we be more active in using people to jump on fires 
immediately when they start. So thank you for articulating 
that.
    I also want to mention that last night the Forest Service 
did announce $300,000 to Chelan for recovery.
    But I wanted to get to these handouts I gave my colleagues. 
So if we could put these up, there are handouts that actually 
show three slides.
    One, the 2012 Wenatchee Complex and fires.
    [The information referred to follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
     
    One thing, Mr. Burnett, you did not mention when you kept 
saying warehouses were burned down. Could you explain to people 
what was in these warehouses?
    Mr. Burnett. Yes, the community of Wenatchee, we lost 
approximately $110 million worth of assessed value. The fire 
spotted from the Broadview neighborhood over a mile into an 
industrial area, took hold initially in a recycling plant and 
spread to the roofs of a chemical warehouse storage building 
and then spread to two large fruit packing plants.
    So yes.
    Senator Cantwell. All of this is the home to the apple 
industry in Washington State and why it is so--okay so the next 
chart demonstrates the Beehive Reservoir.
    [The information referred to follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
      
    So the red is encroaching fire from this season and the 
community that was trying to be protected. This Beehive 
Reservoir area is where you did actual treatment. Is that 
correct?
    Mr. Burnett. Right. So you can barely see it there, but the 
Forest Ridge neighborhood is a Fire Wise community. They've 
taken a lot of efforts to protect the approximately 70 homes 
that are there, and we've done grant funding with them to do 
fuel modifications right around the neighborhood. We've tried 
to partner with the state agencies as well as the Federal 
agencies on choosing those areas where the fuel treatments 
would be best suited.
    The Beehive Reservoir has had a lot of fuel treatment 
around there by Forest Service and that fire that, you see the 
perimeter, is the Peavine fire that was coming into, 
threatening that area. It's less than two miles away. The fuel 
treatment in Beehive Reservoir area was significant in 
controlling the fire.
    In 2012, the Wenatchee Complex had over 60 fires that we 
were dealing with and so being able to allocate a limited 
number of resources in that area on a fire suppression effort 
that took a minimal amount of resources was significant for us.
    Senator Cantwell. Well and fuel treatment, you are saying 
that was a success in a year that we actually even saw places 
where the fire jumped the Columbia River. So we had extreme 
weather conditions blowing that up.
    Mr. Burnett. Yes.
    Senator Cantwell. So can you go to the last page which I 
actually wanted Dr. Covington or Mr. Wyss to comment on. This 
is an up close of the area that Bryan Petit from our staff was 
just there visiting.
    [The information referred to follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
     
    You can see on one side of the road the treated area, and 
on the other side the burned area, so basically it did not jump 
over to the other side of the road.
    I think one of the most important things that you said in 
your testimony is this issue about surface to crown. From our 
state agency, from our DNR Director and everybody, it is all 
about the crowns, right? The ferocity of our fires are from 
crown to crown.
    What we are talking about here is reducing the ability to 
get to crown level by basically reducing the surface timber. So 
if you wanted to further elaborate on the challenge that we 
have with all this Ponderosa Pine not having been treated for 
some time and what that means as far as the ability to go crown 
to crown and the kind of devastation we're seeing?
    Dr. Covington. Yes. So about 90 percent of our mega fires 
are in the dry forest types in the West. This last season we 
saw mega fires in areas where crown fires are normal, just not 
crown fires of that size, of the size that we encountered. So 
they are separate problems.
    On the one hand with frequent fire forests, like Ponderosa 
Pine, they were originally, before fire regime suppression, 
were open and park like. The fires naturally burned through the 
understory. The plants and animals were adapted to these fires. 
These fires are easy to control, if you want to control them, 
although it's not always clear why you might want to control 
surface fires.
    As the forest filled in we moved from a frequent fire 
regime in Ponderosa Pine to a crown fire regime. So we 
essentially created the kinds of fuels that occur naturally in 
Spruce, Fir and Lodgepole Pine over tens of millions of acres 
throughout the West. So the solution in that type is 
restoration, is thinning out the post-settlement trees, 
conserving the old growth trees which are so important for 
wildlife and aesthetics, biodiversity and then reintroducing 
natural fires, fires that would burn on the two to maybe, 15 
year interval.
    In the crown fire types, in Spruce, Fir, like in interior 
Alaska, Lodgepole Pine types, we have a different problem. 
There the fires have always been crown fires but they were 
smaller crown fires on the scale of like in the case of the 
Yellowstone ecosystem, somewhere on the order of 100,000 acres, 
200,000 acres. But what we've seen over time with fire 
suppression is that we get an area that's ready to burn now. 
Fifty years from now being adjacent to five other areas that 
have accumulated crown fuels to the point that they'll support 
fires, it's a lot easier to fight a 100,000 acre fire where you 
know that's as far as it's going to go than it is a million 
acre fire.
    When we're dealing with mega fires we--this is very recent. 
We just don't have the capability to deal with fires of that 
size, so the restoration in that area of sizes, it's patch 
sizes, involves putting in fuel breaks.
    If you weren't worried about aesthetics, it would probably 
be clear cut fuel breaks between these different patches to 
break them up so that they can then burn at a more normal size.
    Senator Cantwell. Thank you. And thank you, Madam Chairman, 
I know my time is up.
    The Chairman. Senator Daines?
    Senator Daines. Thank you, Chairman Murkowski and Ranking 
Member Cantwell for holding this critically important hearing.
    I have got to say I am tired of talking about this. I want 
to see action out of Congress. We need to do something.
    Like much of the West, Montana had a very difficult fire 
season. Over 300,000 acres burned, multiple evacuations of 
populated communities were ordered. In fact one firefighter 
from Stevensville, Montana was the only survivor of that four 
member crew where three of them lost their lives in Western 
Washington that was referenced twice in this hearing already.
    This year's fire season demonstrated the need for a strong 
wildfire funding solution that is a support of the Wildfire 
Disaster Funding Act. I strongly believe Congress should 
relieve the Forest Service of the suppression costs of fires 
that are truly natural disasters, but at the same time the fire 
season also demonstrated the urgent need for restoration work 
to be done in Montana and other parts of the country.
    Consider, for example, lessons of the Bear Creek fire in 
the Flathead National Forest. I was up at the Incident Command 
Center of West Glacier here when the big fires in Glacier were 
burning this summer. Bear Creek is not too far away.
    It was incredibly hot with flame lengths reaching 100 feet. 
As the fire progressed to the Meadow Creek trailhead, it went 
to a spot where we had a recently completed a thinning project. 
However, when it hit the recently completed thinning project, 
guess what happened? It settled down considerably.
    Local Forest Service officials said the thinning project 
really worked. That is the good news. Now here is the bad news. 
The thinning project was part of the larger Spotted River 
project that was hamstrung by litigation for several years. 
According to nonpartisan research done by the Bureau of 
Business and Economic Research at the University of Montana the 
case was in court for over 1,000 days. So instead of planning 
for a new forest restoration project, 18 Forest Service 
personnel spent nearly 2,000 hours responding to the lawsuit.
    Further, the study found that over 100 forest project jobs 
were threatened. It pointed out that the litigation delayed 
efforts to improve recreation access and wildlife habitat. I 
was chasing elk just this last weekend in Montana, and you hear 
both the quantitative as well as qualitative stories about when 
you thin the forest it improves the habitat for the wildlife.
    It is quite possible that the work that was upended by the 
litigation could have further mitigated the damage when that 
fierce, fierce, Bear Creek fire swept through. The Forest 
Service ultimately prevailed in court, but the impacts of 
litigation against this project and many, many others are 
extensive and they are severe and they should not be accepted.
    I urge my colleagues on both sides of the aisle, let's come 
together and pass a wildfire funding solution as well as timber 
management that includes some litigation reform so we can move 
forward here and protect our forests, protect our jobs and 
protect the lives of the men and women who fight these fires.
    Dr. Covington, you talked about the importance of thinning 
and prescribed burns, you also talk about the dangers of 
excessive stand densities. Do you think that providing the 
Forest Service with additional tools such as expanded 
categorical exclusion authorities could help the agency get 
substantially more restoration work done?
    Dr. Covington. Yes, of course it could. One of the problems 
that we've solved, I think, in a lot of the collaborative work 
is that when you get local people together to support a 
project, if you have strong, local, political support, you can, 
kind of, head off legal action that might otherwise stop a 
project.
    So there's the one approach that you're describing is let's 
have more categorical exclusions and that, obviously, if that 
could get through, you'd still have potential political blow 
back from it that could slow a project down.
    If you have local, political support that's well organized 
and engaged in it, in many ways I think that would be more 
robust.
    Senator Daines. Yes.
    Mr. Covington, in addition to, I think, that reform is 
needed, would include incentives for the collaborative efforts 
as well.
    It is working in Montana. The problem is the extreme 
environmental groups that litigate the collaborations are not 
part of the collaboration. They are waiting at the courthouse 
to file the lawsuit once the collaboration wants to move 
forward.
    Dr. Covington. That's right, and so it seems to me, Senator 
Daines, that there's, just like there are variations across the 
landscape in fuel accumulation and forest types, there are 
variations across the political landscape that make different 
solutions more helpful in one area than in another. And we 
don't typically analyze that.
    Senator Daines. Right.
    Let me ask one last question, Ms. Fennell, because my time 
is out.
    Ms. Fennell, I think performance metrics and accountability 
are vital and thank you for being here. You note in your 
testimony that the Forest Service is beginning to improve at 
understanding fuel treatment effectiveness.
    Do you have any other thoughts on how Congress can further 
enhance accountability on the agency in terms of both finding 
the most effective fuels reduction treatment for a given area 
and in maximizing the amount of effective fuels reduction 
projects it does each year?
    Ms. Fennell. Senator, I think it would be important to 
continue oversight in terms of the new efforts that they are 
putting into place regarding looking at the effectiveness of 
their fuel treatment program. They--we noted in 2007 that, they 
did not have sufficient information by which to evaluate the 
effectiveness of the fuel treatment programs, and therefore had 
impacts in terms of how they would allocate the resources 
accordingly.
    Since that time they have established a new system called 
the Fuel Treatment Effectiveness Monitoring Program. It is in 
process, and I think it would be important to continue 
oversight over it to see how it's progressing and whether it's 
getting the information that's needed to evaluate the 
effectiveness of the fuel treatment program.
    Senator Daines. Thank you. I am out of time.
    The Chairman. Senator Heinrich?
    Senator Heinrich. Thank you, Madam Chairman.
    Dr. Covington, I want to start with you, and I want to 
start with a thank you actually because I think in oh, seven 
years of Natural Resources Committee meetings on both sides of 
the Capitol in both the House and the Senate, I think you are 
probably the first person to succinctly articulate that we need 
different strategies for different forest types and that what 
works in a Ponderosa Pine forest that should be burning every 2 
to 15 years is not exactly the same prescription that we are 
going to need in a closed canopy forest, be it Spruce, Fir, or 
Lodgepole Pine further north. I think that is really helpful.
    I think we tend to oversimplify things here in Washington, 
but I think that comes with the territory.
    You said you used the phrase, ``an ounce of prevention is 
worth a pound of cure.'' I think we all wish that everyone 
agreed with that approach, but one of the challenges we have 
had has simply been being able to show and justify the 
restoration efforts and show that they actually do pay off 
economically in the long run. And that goes back to the 
question that Senator Daines was raising as well about 
evaluation of those.
    Can you talk a little bit about data capture and 
particularly one you are able to wrap things in like the 
potential impacts to municipal water supplies and soil impacts, 
about the cost effectiveness of being able to do, especially 
these Ponderosa Pine, restoration projects rather than waiting 
for these areas to burn and starting from scratch?
    Dr. Covington. So quickly then there. We have studies where 
we've approached this two ways.
    One is looking at areas that have already burned over, 
large landscapes and then examining the portions of those 
landscapes that had been treated before with restoration 
treatments. And repeatedly what we see is that in areas where 
the forest had been restored to more natural conditions they 
stand up, even under the most severe fire conditions.
    Senator Heinrich. Right.
    Dr. Covington. They survive well. Fires burn through the 
understory, and then once they get out of the treatment they 
get up in the crowns again and run.
    These kinds of fuel breaks, restoration-based fuel breaks 
in Ponderosa Pine, we see have saved houses, have saved entire 
communities as well. In the back country this works also to 
protect Mexican spotted owl nest sites and other highly-valued 
portions of the landscape. So one way is an ex post facto is to 
go out there, see what happens and the evidence is 
overwhelming. It works.
    The other thing that we've done is what I mentioned in my 
testimony, is we've looked at fires and then analyzed what the 
potential fire behavior would have been had treatments been put 
in elsewhere. When we do that sort of analysis what we see is, 
by breaking up landscape scale fuel community, continuity.
    Senator Heinrich. Right.
    Dr. Covington. You can protect values at risk, including 
homes, where if embers are coming two to four miles away.
    Senator Heinrich. Gotcha.
    Dr. Covington. Being dropped into communities.
    Senator Heinrich. Thank you.
    I want to shift real quick to Ms. Fennell. I want to start 
by just saying that I think it is clear that at this point 
using the 10-year average to budget for fires is no longer 
working for us. If you look back at the last 9 of 11 years, 
using the 10-year average has underestimated the Forest 
Service's suppression costs 9 out of those 11 years and it was 
actually 40 percent below actual costs during that period.
    With the climate shifting that we are seeing we do not see 
that trend exactly slowing down, so the ten-year average 
standard was created at a time to ensure that in most years the 
agencies would have the funds that they needed to cover those 
costs. That is not what we are seeing work out today.
    So if that no longer works as a construct do you have 
advice for how we should be budgeting for something that can be 
as variable as fire suppression costs from year to year?
    Ms. Fennell. Senator, we haven't specifically looked at 
that particular issue as part of our current effort. I think 
the last time we looked at various options available for 
legislative action was about 2004. We noted that there are 
various pros and cons with each approach that's taken, but we 
haven't specifically looked at the current issue that you're 
raising as part of our current work.
    Senator Heinrich. Does anyone else have a comment?
    Mr. Maisch. Yes, I'd like to respond to that.
    We do much the same in the state. We talk about a 10-year 
average and budget for that but what we found, as you alluded 
to because of changing weather patterns and climate, you have 
these extreme events much more frequently. And it's hard for a 
10-year average to fit to that kind of a scenario.
    So you really need the flexibility from an agency 
perspective to do a disaster declaration which is what we do in 
our state and the supplement suppression accounts when those 
kinds of events have occurred. You've got to have some kind of 
system that allows that flexibility because it's hard to 
anticipate the kinds of events that we're seeing.
    Senator Heinrich. That is helpful, thank you very much.
    The Chairman. Thank you.
    Senator Barrasso?
    Senator Barrasso. Thank you very much, Madam Chairman.
    You know this year is another example why it is a necessity 
to conduct more prescribed fires, perform more fuel reduction 
treatments and undertake more vegetation management projects to 
thin our unnaturally, overcrowded forests. According to the 
Forest Service between 62 and 82 million acres are in need of 
treatment and are at risk of catastrophic wildfire over 40 
percent of the entire National Forest system and the number is 
growing.
    We simply cannot allow the status quo to continue. That is 
why I have introduced S. 1691, a bill called the National 
Forest Ecosystem Improvement Act. It is designed to make 
treating our forests a priority it needs to be.
    The Forest Service also states specifically there are about 
12 and a half million acres in need of mechanical treatment 
such as thinning. With these numbers in mind do each of you 
agree that Congress must take action to increase the pace of 
treatment using both prescribed fire and mechanical methods to 
restore forest health and reduce the severity and the size of 
wildfires?
    Everyone agrees with that? [Witnesses shaking heads yes, 
simultaneously.]
    Senator Barrasso. Alright.
    Dr. Covington, in your written testimony you say it is too 
late to use controlled burning alone to protect communities and 
restore forest health. You then explain why first thinning and 
removing unnaturally high tree densities and then introducing 
fire produced stunning results. Would you elaborate on why you 
think it is too late to just use controlled burns alone and 
what are some of the stunning results that you are seeing?
    Dr. Covington. Okay. So when I first started out in this 
work back in `75/'76 I was pretty much thinking that if fire 
exclusion had caused this problem you just put fire back in. It 
ought to solve the problem, and so I embarked on a 6-year 
program of study working with cooperatives with the Forest 
Service to try this.
    What we found in dense forests of Ponderosa Pine which is 
95 percent of the Ponderosa Pine type is that we could not 
develop a safe prescription. On several circumstances we had 
fires get into the canopy, become independent crown fires and 
fortunately we had enough suppression force around to knock 
them down again. But I was on the verge of becoming the 
shortest lived professor in the school of forestry. I would 
have been fired if we'd burned up the San Francisco Peaks from 
those early experiments.
    Then that caused us to look at thinning out the post 
settlement trees to try to restore natural conditions, and 
those first experiments have just been so stunning. We've now 
done this throughout areas in the West, especially Arizona, New 
Mexico and Colorado. What we see is old growth trees that have 
put on no growth at all for decades start growing like 
teenagers. We see abundant grass production and wildfire 
production understory, a tremendous blossoming of birds, 
songbirds, butterflies and everything. So every aspect that we 
look at in forest health shows that these work.
    The difficulty that we've got, Senator Barrasso, is not all 
areas are accessible for being able to remove all of the 
biomass and the thin material. So a problem that we're dealing 
with right now is trying to figure out how can you do onsite 
disposal of some of these materials while not creating 
excessive fire hazard or dumping a lot of smoke into the 
atmosphere. We're talking about putting a lot of treatments 
down there around urban interface areas, and that's where 
people live and people have asthma and they have lung diseases 
and they like to breathe clean air. So right now we're putting 
a lot of focus on how we can deal with that biomass issue.
    Senator Barrasso. In terms of this wildland urban interface 
that you just made reference to, you also write about the 
reduced mega fire potential when treatments in all high risk 
areas were performed verses treatments only in the wildland 
urban interface. Why are the risks of the mega fires reduced 
when treatment is not limited to around communities only but 
also treating the greater landscape as a whole?
    Dr. Covington. Well, thank you for the question.
    The treatments around communities are designed to protect 
houses, primarily, you know, to help out with fire department 
operations. When you're talking about mega fires across the 
landscape, that's only 5 percent or less of the landscape in 
most circumstances. In the back country is where we have our 
natural resource values, the watershed function, biological 
diversity, wildlife, recreation opportunities and so on. So I 
don't think anyone wants just the houses in burned over 
landscapes.
    I had one study area over in Los Alamos back with the Cerro 
Grande fire. This one elderly couple had a brick home. They had 
cleared out around their house. It survived the Cerro Grande 
fire. They got smoke damage payments. All the houses around 
them burned, but they didn't want to live in a burned over 
landscape. Out back, you know, from their door was a wonderful 
little canyon that just burned to a crisp, killed all the old 
growth trees. And ironically on their property there was an old 
growth tree that had been labeled in Forest Service research in 
1911--it was 480 years old--that had survived. It had fire 
scars on it. It survived 40, 50 fires, and then in that one 
fire it burned up.
    So most people that are living in this country don't want 
their cabin or their house or their subdivision in a burned 
over landscape. So we've got to look at it in the whole habitat 
point of view, I think.
    Senator Barrasso. Thank you.
    Thank you, Madam Chairman.
    The Chairman. Senator Stabenow?
    Senator Stabenow. Thank you very much, Madam Chairman and 
our Ranking Member for holding this hearing. These are very, 
very important issues and it is interesting to me that I find 
myself on the Agriculture, Nutrition and Forestry Committee, 
Energy Committee and Budget Committee, I am, I think, the only 
member on all three committees that are touching all of this, 
and it is incredibly important.
    Let me start out by saying we just held a hearing in the 
Agriculture, Nutrition and Forestry Committee a few weeks ago, 
and we found amazing consensus around the issue on the budget 
and on Senators Crapo and Wyden's bill. In fact it was 
interesting. Every single person that testified from across the 
political spectrum was saying that we needed to start the 
wildfire discussion by fixing the Forest Service budget and the 
Wildfire Disaster Funding Act. So I want to applaud Senator 
Wyden and Senator Crapo for that because I do think when we are 
looking at mega fires, like you have been talking about today 
and natural disasters, that it is incredibly important that we 
understand what is coming and more and more and deal with it in 
a different way.
    I would like though to start, Mr. Maisch, with talking 
about what happens, because we are taking all the funding. I 
mean, we passed a Farm bill in 2014 with the most robust 
funding we have ever had in a forestry title to try to get 
ahead of things by doing it and creating a number of tools to 
deal with prevention and so on. All that money is going to 
fight the fires, so we are not able to get ahead of it.
    Because you concluded in your written testimony support for 
the Wildfire Disaster Funding Act, I wonder if you might talk 
some about the basic Forest Service functions and programs in 
Alaska that are suffering because the agency is forced to spend 
so much of their budget on wildfire suppression?
    Mr. Maisch. Ah yes, thank you for that question, Senator.
    It's not as much in Alaska as in other parts of the country 
because, of course, the Tongass is not a fire driven ecosystem. 
So there's different issues affecting the Tongass of which I'm 
sure we don't have time to go into. But I can speak to the 
issue of more active management on Forest Service lands.
    When they have to divert funds, essentially borrow funds, 
to pay for suppression costs it takes away from all the 
proactive activities, pre-commercial thinning, commercial 
thinning, restoration work. You can almost name the type of 
activity. It restricts the funds available for that type of 
work.
    I think you heard from everyone on this panel and as you 
alluded from other panels that you've heard from that you have 
to get in front of this problem. You have to be proactive, and 
you can't just pay for fighting fire. We need to pay to prevent 
fire where we don't want fire.
    Senator Stabenow. Thank you.
    To that point, Mr. Burnett, I wondered if you might speak a 
little bit more to the fact that our forests are not just on 
Federal lands, as we have all said, or even on state lands, 
there is private land as well. And our private landowners and 
states have a huge role in making forests more resilient to 
wildfire, both to protect lives and property and safeguard 
drinking water and so on, all the issues we have talked about 
today.
    We have worked again back into what we did in the forestry 
title of the Farm bill to expand what is called Good Neighbor 
Authority a couple of years ago, and we have seen some Good 
Neighbor Agreements signed recently in Wisconsin and Michigan 
that are positive.
    I wonder if you could speak a bit from your experience to 
the importance of forest health efforts between Federal, State, 
and private land boundaries and what types of policies and 
concepts should we be thinking about as we build on the Good 
Neighbor Authority?
    Mr. Burnett. Thank you, Senator.
    So it is not just a Federal issue. The local fire districts 
are your first line of defense in protecting those homes that 
are in the wildland urban interface. The homeowners also have 
to understand that they have a responsibility to help harden 
their homes and to take the efforts to reduce the fuel around 
their homes. They need to work as a community.
    The Sleepy Hollow fire, part of the neighborhoods that were 
affected, had defensible spaces around them and we were able to 
steer the fire around that. It got into the Broadview 
neighborhood and those homes are tightly packed together and 
they're sitting right on top of a ravine that has old growth 
sage in it. When the fire hit that it came up over the homes 
and was basically a tidal wave of flames, and there's nothing 
that we could have done to protect those homes. It is not just 
the Federal efforts, but it is the local efforts as well. The 
city of Wenatchee has enacted the WUI fire codes from ICC, and 
those types of efforts need to happen both on a city and a 
county level to help us give us the tools to be successful when 
the fire does come into a WUI interface area.
    Senator Stabenow. Thank you very much, Madam Chairman.
    Senator Risch [presiding]: Thank you, Senator Stabenow.
    Senator Gardner, you are up.
    Senator Gardner. Thank you, Senator Risch. And to the 
panelists, thank you for being here.
    According to the Congressional Research Service, since 2000 
we have had an average of about 74,000 wildfires burning an 
average of 6.6 million acres. We have talked about the numbers 
and how 7 of the past 11 years have been beyond that. During 
the 1990's the annual average of burned acres was 3.6 million 
acres.
    So I appreciate the work Dr. Covington is doing and 
appreciate the presence in Colorado at the Institute. We have 
obviously felt the burn as well in Colorado in terms of the 
forest fires and the destruction that has occurred.
    In June 2013 the Black Forest fire, northeast of Colorado 
Springs, saw 14,280 acres and 488 structures destroyed. A year 
earlier in June 2012 the Wallow Canyon fire, outside of 
Colorado Springs, saw 18,000, nearly 19,000 acres burned and 
346 homes destroyed. In 2012 we saw the High Park fire in 
Larimer County destroy nearly 87,000 acres and 259 structures. 
In 2010 the Four Mile Canyon, northwest of Boulder, saw 6,000 
acres burned and 170 structures burned down. And of course, one 
of the most infamous wildfires in Colorado history occurred in 
June 2002 when the Hayman fire burned 136,000 acres and saw the 
destruction of 600 structures.
    While we have experienced significant wildfires over the 
past 15 years, our state's development, like the rest of the 
country with an interest to fire developing in the wildland 
urban interface, as we have talked about here this morning. 
According to a 2007 Colorado State University study between 
2000 and 2030 there will be a 300 percent increase in 
Colorado's WUI interface from 715,000 acres to more than 2.1 
million acres.
    Building upon that study in late October of this year the 
American Forest Foundation came out with a report on wildfires 
that highlights areas of our nation that are most at risk for 
wildfires and threat to watersheds. The analysis found that 
there are 52 million acres at high risk for fire on private 
land, on family forest land in addition to the 93 million acres 
on public land. Of these 52 million acres, 1.3 million of them 
are in Colorado.
    And so, Mr. Burnett, I have a question for you. Given that 
you serve in an area of Washington with significant fire risk 
that also has considerable wildland urban interface, what steps 
do you think we should take to address the risk to private or 
family forest land?
    Mr. Burnett. As I said before, the rural fire departments 
are staffed with primarily volunteers, and there's a need for 
additional resources to make an initial attack and keep the 
fires small and prevent it from becoming one of the larger 
fires. The ability for us to extinguish the fire on that 
initial attack is critical.
    I mentioned the fact that we need the ability to activate 
air resources in order to fight those fires and not wait for 
the Federal or State agencies to come in to assist us with that 
and to call for those assets. I think that's my answer.
    Senator Gardner. Yes and I think at the beginning of your 
testimony you talked about four points. I think you talked 
about education, quick attack, fuel reduction, and aerial 
response.
    Mr. Burnett. Yes.
    Senator Gardner. When it comes to aerial response in 
Colorado there has been significant debate about whether or not 
there should be a state aerial firefighting fleet. Is that 
something that you have seen in Washington or other states 
looking at that?
    Mr. Burnett. Yes. The Washington State Department of 
Natural Resources has eight helicopters available for 
deployment. Chelan County Fire District One actually has a UH1 
medium helicopter that we acquired years and years ago. It was 
leased to DNR for many years and then they built up their fleet 
and decided that they no longer needed it.
    As you've heard in testimony here, our helicopter is not 
available to be utilized on State and Federal fires because our 
pilots aren't carded for long line operations. The helicopter 
itself is carded but not our pilots.
    Senator Gardner. That is something I think that we have 
seen in Colorado too, because down in the Southwest corner of 
the state where you have the narrow gauge railroads and you 
have a privately-owned railroad that draws thousands of 
tourists every year. The railroad company has a firefighting 
fleet but they are restricted to activities within 50, I cannot 
remember the number of feet, the right of way that they are 
allowed to act in, but if they go beyond that they get in 
trouble from the Forest Service for trying to put out a fire.
    I understand the Forest Service has to try and protect 
themselves and make sure that people are taking safety into 
account and doing the right thing, but do you see the Forest 
Service willing to work with you and others on this 
certification issue so that we can address questions like this 
railroad issue to allow more private resources to be brought to 
bear, to allow the state to be able to provide resources more 
timely when available?
    Mr. Burnett. There have been efforts regionally for us to 
be able to utilize our helicopter, for example. Two years ago 
we would have to set down when the State or Federal helicopters 
entered into the air space. Last year we were allowed to 
actually continue flying when they entered into the air space, 
but they will not call or utilize our helicopter.
    Senator Gardner. I know I am running out of time.
    Ms. Fennell, has GAO taken a look at some of the ways that 
our Federal disaster designations work? Here is what I mean by 
that question. If you have a significant burn we know that any 
significant moisture event after that fire is going to result 
in flooding because of hydrophobic soil conditions and other 
problems that occur. Oftentimes though that next or that 
secondary disaster is not included in that first disaster and 
people have to go back and reapply, resubmit, adding cost when 
if they were able to address the damage done to the soil 
conditions to prevent that flood from occurring which you know 
will occur because of the next moisture event, you would have 
saved money in the first place. Has the GAO done any kind of 
look into whether we could be more efficient and effective with 
the initial disaster dollars by preventing the secondary 
disaster that comes from a fire?
    Ms. Fennell. We haven't specifically looked at that 
particular issue, but we would be happy to work with the 
Committee staff in terms of any interest in terms of looking at 
other, perhaps relevant GAO disaster work that could be 
applicable to this particular situation.
    Senator Gardner. Very good, thank you.
    Senator Risch. Thank you, Senator Gardner.
    I am going to exercise the Chairman's prerogative here and 
just say that I think, probably, Mr. Zerkel might have some 
thoughts on that exchange between Mr. Burnett and Senator 
Gardner. Would I be correct on that?
    Mr. Zerkel. Pertaining to?
    Senator Risch. The aerial firefighting that was referred to 
in the exchange between the Senator and Mr. Burnett.
    Mr. Zerkel. Well I can say that from our perspective the 
method by which the Forest Service wants to operate the C130's 
that they're designated is probably not the best way to go 
about it, that public use format. And that's really our message 
today is it is a poor way to go about operating aircraft.
    Industry has very rigid standards that must be met in order 
to modify an aircraft, such as putting a tanker into it. Under 
that public use aircraft format those rules are not applicable. 
I'm not saying that they don't do a good job of engineering or 
whoever they get to do it wouldn't do a good job of 
engineering, but there is not prescribed process to make sure 
there's no pieces missing, no holes that haven't been filled, 
and that's the real danger of that type of operation.
    Senator Risch. Thank you for thoughts, Mr. Zerkel.
    Mr. Maisch. Senator, might I add to that answer?
    Senator Risch. Please.
    Mr. Maisch. Yes, thank you.
    I didn't answer a question earlier from Senator Murkowski 
as well as I could have on this topic of carding, but you did 
have an excellent example in Colorado this year of this which 
illustrates this problem. You have a multi-mission aircraft the 
State owns. It was requested on an infrared mission in Oregon. 
The aircraft had been carded in Region 2, the Forest Service 
region, in your area and then it went over there to Region 6 
and had to be re-carded again. So that's the situation, and I 
think the way to get at fixing this is we have various 
memorandums of understanding, cooperator standards, and 
mobilization guides that the agencies use to move things like 
this around the country. We need to ensure that those 
agreements with the states and the agencies recognize each 
other's standards and will accept them right up front, so 
there's no more of this back and forth well, it's Region 2, 
it's Region 6, it's OAS. Those agreements have to explicitly 
state if it's carded in one jurisdiction, it's good to go 
nationally. I think that would really help.
    Senator Risch. That unfortunately makes too much sense. 
[Laughter.]
    Senator Franken?
    Senator Franken. Thank you, Mr. Chairman.
    I heard Senator Gardner say that Colorado felt the burn, 
and I was actually at the HELP Committee with Senator Sanders 
and apologize for not being here but I am sure that he 
appreciated the shout out. [Laughter.]
    And--
    Senator Gardner. I was hoping nobody was paying attention 
as those words left. [Laughter.]
    Senator Franken. I did.
    Last night I read a lot of the testimony, and we are 
hearing common themes about the balance that is spent of 
suppression as opposed to prevention, the balance shifting, of 
course, to suppression. Also in prevention you are trying to 
get rid of hazardous materials as part of that. And then we 
heard just a lot of talk, a lot of testimony about the wildland 
urban interface. I would like to see and I think this is an 
opportunity for helping to pay for the removal of hazardous 
fuels from the, especially from the wildland urban interface, 
if we use this waste as a source for electricity because this 
would put a value to that biomass and also reduce the risk of 
fire in that space which as all the testimony says is growing. 
We can utilize this in terms of combined heat and power and 
other facilities that use woody biomass.
    Dr. Covington, let me ask you, are there places where 
forest waste is being used for biomass electricity generation, 
and what are the benefits of that from a forestry perspective?
    Dr. Covington. Yes, there are a number of places throughout 
the West where biomass, the slash material that's not suitable 
for making traditional dimension lumber or engineered forest 
products are being converted to electricity. So that technology 
exists. It's mostly an older technology that's there.
    So for example, in Arizona we have a plant that takes 
biomass from within about a 50 mile radius and generates 
electricity. That plant has contracts with a couple of the 
universities, I mean, the electrical providers in Arizona to 
buy that.
    One of the problems we've got is that with the decrease in 
the price of fossil fuels there's a disincentive then to use 
biomass which now is more expensive, even than solar.
    But still as part of a comprehensive package it's 
important. We're talking about health a few minutes ago. That 
biomass that's burned in a plant generates very little smoke 
and other items in smoke that threaten human health. So instead 
of burning it out in the woods if you can burn it in a 
facility, a biomass conversion facility, you can solve that 
problem.
    Right now the biomass part of this is a major stumbling 
block to how we can pay for and do effective landscape scale 
restoration, more work needs to be done. We've got ecological 
restoration institutes, state foresters and University of Idaho 
are working together in February to examine this biomass issue 
to try to look at innovative ways to do that, both for onsite 
disposal back in the woods without generating as much smoke and 
then being able to use it actually for electricity.
    Senator Franken. Now I have great interest in that and 
have.
    Ms. Fennell, last May Chief Tidwell testified to this 
Committee on the interaction wildfire and climate change and 
has done this a number of times. This is, in a way, I think 
that climate change, we have seen a change in the duration of 
the wildfire season. We have seen the change in the intensity 
of these fires and the size of these fires. This is now the new 
normal.
    I am supporting Senator Wyden's bill, the Wildfire Disaster 
Funding Act of 2015 because, and Mr. Chairman I am just going 
to go a little bit over, if that is okay, just a minute or so.
    Senator Risch. Do I have any choice? [Laughter.]
    Senator Franken. Actually, you do.
    Senator Risch. Go ahead.
    Senator Franken. Okay, thank you. Thank you for exercising 
your option to give me the minute or so.
    It seems to me that we have so much, that we are doing so 
much fire borrowing that we should be treating this as the new 
normal and that is disastrous.
    Superstorm Sandy caused about $60 billion in damage, or at 
least the cost to Federal Government that this, I think, should 
be treated as a new normal. I think we should be treating these 
as disasters, especially these super huge fires, and about 30 
percent of the cost comes from that.
    So I would just make a plea for Senator Wyden's act which 
would use 30 percent as a disaster fund and treat it in that 
way because I think that is what it is.
    Thank you. Thank you, Mr. Chairman.
    Senator Risch. Thank you, Senator Franken.
    Let me help you out a little bit with your interest in 
biomass.
    This is not new, particularly in Idaho. They have been 
running at this for over ten years, and they have been 
notoriously unsuccessful in doing it.
    Dr. Covington, rightly pointed out there's additional 
research going on it. I would disagree a little bit with Dr. 
Covington in that one of the real challenges is the fumes and 
smoke and what have you that is put off by the burning of the 
biomass. Now certainly, it is better in a controlled atmosphere 
than it is in the woods. But having said that, the EPA would 
probably disagree a bit with you, Dr. Covington, that this is 
something that needs additional work because the private 
companies that have tried to do this have not been successful 
at it.
    There have been some successes but they are very, very 
limited. The only way, I think, that is it is going to be done, 
at least under present circumstances, is with subsidies from 
the Federal Government. I know that does not particularly 
trouble you, but there are those of us who are not looking down 
that road very favorably, but--
    Senator Franken. May I respond very quickly?
    Senator Risch. Please.
    Senator Franken. We have a combined heat and power plant in 
St. Paul, Minnesota that generates electricity and also does 
the end, does the heat and cooling for downtown St. Paul. I 
think they have been successful and that this has been done 
successfully in other places.
    Senator Risch. That is correct, and in the old days it was 
very, very common. Every small town in Idaho had a sawmill, and 
that sawmill had what they called a tepee right next to it. The 
tepee was a co-gen facility that generated heat and steam and 
electricity, and it was very, very, common. Every small town 
had one. They are all gone.
    I don't know, do you guys have tepees left in your states? 
They are gone from Idaho. But Senator Franken, you were 
correct. It was very, very common, but because of the cost of 
it and because of the environmental challenges they have been 
wiped out. They are gone.
    I am not saying it should not continue to be pursued. The 
University of Idaho is doing some great work in that regard.
    Senator Franken. It is a great university.
    Senator Risch. It is. It is my alma mater, I might add. 
[Laughter.]
    As long as we have mentioned that, my undergrad, as most of 
you know, was in Forest Management. A little over half a 
century ago I sat in the classroom. I took a couple of 
semesters of fire behaviors. If it was not the class, it was at 
least part of the studies in that particular class.
    But really, with all due respect, the things I have heard 
here today and the things I have heard over the many, many 
hearings we have had on this have really not put anything new 
on the table. Back then, half a century ago, we were only 53 
years from the Big Burn in Idaho. Now we are over a century but 
back then it was only a half a century ago. The professors who 
taught, the people who worked in the woods, they all knew the 
Big Burn and they knew what had happened and they knew how fire 
behaved and what caused it and what the problems were. So this 
is not new.
    The problem here is not the problems that you, all of you, 
have described. Those problems have been known for a long, long 
time. The problem here is very, very political, and I do not 
mean republican versus democrat. With all due respect to our 
colleagues that live east of the Mississippi River, they really 
do not have an understanding of what fire is like in the 
ecosystem that we live in the West. And with all due respect to 
Senator Stabenow, who talked about private lands, look, in 
Idaho two out of every three acres is owned by the Federal 
Government. We never had a major fire in Idaho that it was not 
the Federal Government that was in it up to their ears and a 
lot of it due to poor management.
    The Good Neighbor laws or policies Senator Stabenow talked 
about, the people in Idaho do not particularly look at the 
Federal Government as a good neighbor when it comes to 
management of their yard. They do not cleanup their yard, and 
the result of that is we have major, major catastrophic fires 
and are sitting on the edge of it.
    When I was Governor we had a summer that had particularly 
bad fires, so I spent a lot of time in an airplane looking at 
those fires from the air. It was stunning to me. I knew this 
before this happened and it is not rocket science, but it was 
stunning what happens when a fire comes up against land that 
has been treated or even land that has been harvested, just 
harvested, or and more commonly and we have it in Idaho very 
commonly, and that is it comes against an area that had been 
burned within recent years and the fire just stops. It changes, 
its character changes, everything changes and the fire is much 
more containable.
    So the problem, I guess I am following the camp with 
Senator Daines, and that is I am just tired of talking about 
this, you know? We all know what the problem is, and assent of 
the Crapo/Wyden bill is a really, really important and good 
response to this. What it does so simply, it tells the Forest 
Service that you should be using your prevention money for 
prevention instead of putting the fire out.
    If we did that one of you said, and I do not remember who 
it was, that this whole thing starts right here with this 
Committee. You are absolutely right. This is where it starts, 
and we really need to get it done.
    Thank you for holding the hearing, again, Madam Chairman. 
One would hope that at some point in time we are going to be 
able to move forward on this. So, thank you.
    Mr. Wyss. Senator Risch, if I may?
    The Chairman [presiding]: Mr. Wyss?
    Mr. Wyss. The one thing that is not being discussed in all 
of this, we're talking about pretreatment and treatments. My 
job is to do long-term recovery for all the fires that have 
occurred in our state and around, and it comes with post-
treatment as well.
    Once the timber has burned and it is still standing, 
cleaning up the fuel load of the burned timber which if not 
done will fall and become the next fire, and coming up with 
options for that including bio-char are significant items that 
we can look at. Because the market becomes so flooded with the 
burned timber, we have to find alternative options. And our 
state is looking significantly at bio-char and other options 
with that burned timber to get it out of the forest so it 
doesn't become fire again and fuel for the next fire. So I 
think we have to look at it not only as pretreatment, but post-
treatment as well.
    Senator Risch. Thank you very much, I appreciate it.
    Madam Chairman, thanks.
    The Chairman. Thank you, Senator Risch.
    There has been a lot of discussion about the need to do 
more treatment either pre- or post- and I certainly understand 
that. Of course it does come down, to a certain extent, to the 
dollars, the resources that are made available. But we also 
know that we have got some obstacles just in doing that and 
obtaining the necessary permits. I think Senator Daines was one 
who mentioned it.
    I would throw this out to you, Mr. Maisch, maybe to Chief 
Burnett or Mr. Wyss as well. In terms of those obstacles that 
keep us from really carrying out the hazardous fuels reduction 
program, what is in our way? Is it just a matter of dollars? 
Are there more politics to it that we need to address? Can you 
outline some of that for me?
    Mr. Maisch. Yes, I'd be happy to.
    I think it is a suite of things. It is, in part, funding 
but probably the bigger part is at least on Federal lands, as 
we had some discussion here in the Committee, on the litigation 
side of this issue.
    Do you get at it through some kind of categorical exclusion 
process that would help with some of that? Do you do 
programmatic level NEPA that would clear very large projects on 
a landscape level so there's only one NEPA process and then you 
implement projects that are covered by that, in that umbrella 
NEPA project? So the potential litigants only get one bite at 
the apple instead of repeated bites every time we do smaller 
scale projects across the landscape.
    I think we have to start thinking in bigger terms and a 
broader, all hands, all lands. I think you've probably heard 
that term from previous committees. It's not just the Federal 
lands. It's the State. It's local jurisdictions.
    But we do have to get a handle on that Federal piece, 
because that's where the road block often is right now.
    The Chairman. Any other comments?
    Mr. Wyss. I would concur that in getting a handle on that. 
We have a DNR section of state land owned in the Carlton 
Complex fire that was cleared for treatment. NEPA, CEPA were 
both done, and the DNR was going to clear the burned timber. 
That is still tied up in litigation, and that timber is now 
falling to the ground and the wind storms and unable to clean 
it up or even recover dollars from that. So the litigation 
piece is a significant challenge to it.
    But it's not only litigation. We have another track that's 
above Highway 20 in between Twist, Washington and Okanogan, 
Washington where it's a multiple jurisdiction ownership. The 
BLM has ownership, and the Forest Service has some ownership. 
Trying to do the necessary treatment, post-fire, has been 
slowed down because the two agencies do not work together.
    They need to streamline that piece to get, I mean, it's all 
approved. But the BLM and the Forest Service are still having a 
slight disagreement, so on the best way to manage the removal 
of the timber. And that's what's causing our challenges of not 
being able to get this done.
    The Chairman. Ms. Fennell, you have in your report looked 
at the, just the reviews, the fire reviews and the concerns 
that we are seeing that we have not been doing the reviews as 
has been directed. Are some of the things, for instance, that 
Mr. Wyss just mentioned in terms of the agencies not 
coordinating well with one another? Is that something that we 
need to beef up or make sure are included as part of these 
reviews is what happens after the fire?
    Ms. Fennell. We think that the reviews are a very important 
way of assessing the effectiveness of their ability to respond 
to fires and to suppress fires. And we called for, 
specifically, that they consider specific, clear criteria that 
they can use to select fires and then to conduct the fires and 
update their policies accordingly. We think that they can 
consider a multitude of criteria in selecting those fires and 
look for reducing how they are going to implement our 
recommendation to do so.
    The Chairman. This might not be a fair question, but I am 
going to ask it anyway. Is there one agency--does Forest 
Service do a better job than BLM or a State? Can you give me an 
indicator as to whether or not there is one model that might be 
working better than others or are all of these equally fraught 
with problems?
    Ms. Fennell. Our work has shown that both Forest Service 
and Interior could benefit from greater information to make 
informed decisions. And we've noted in our recent work that 
both are looking to implement a number of different efforts to 
improve the way that they are fighting wildland fire. But there 
has been a lot of studies that have gone before these 
particular reports and we still think that they need to target 
better information in terms of what the large fire reviews have 
shown, what the performance of different aircraft to fight 
fires has shown and also better ways to deal with preparedness 
and effectiveness. So we think there are opportunities for both 
agencies.
    The Chairman. Well coming from a state where we have got a 
lot of land that goes up in smoke every year and as a state we 
feel like we are pretty in tuned with what is going on with 
fires, and the state is a pretty good example to look to of how 
you bring all hands in to address threats, not only to 
communities, property, but just to the land itself.
    Are our Federal agencies not synching in sufficiently with 
our States and our local fire experts here? Is this part of our 
problem? Chief Burnett, you are smiling.
    Mr. Burnett. You're asking the tough question. I can't tell 
you why it doesn't happen. I can tell you that it needs to 
happen and that the benefits are clearly articulated in this 
panel.
    So, you know, Forest Ridge Wildfire Coalition has received 
grants from the Department of Natural Resources to do fuel 
modification efforts around there. We coordinate with the State 
agencies as well as the Federal agencies to do fuel treatments 
in that prescribed or in that general jurisdiction or 
geographical area.
    We're working well with our partners as far as the 
restrictions that they have to go through in order to make it 
happen. You know, that's and it's, I think it's a political 
issue and a logistic or a litigious concern.
    The Chairman. I appreciate that.
    I am going to ask Senator Cantwell to wrap up with the 
final questions, but I do not want to conclude without a final 
question to you, Mr. Zerkel, because you have raised the issue 
of aviation assets and where we are. You have questioned, very 
clearly, I think, the wisdom of the government-owned tankers 
and the proposal going forward with these next gen air tankers. 
You have noted, very clearly, I think, for the record that what 
we have is not only an inconsistency. You call it a double 
standard between the government-owned aircraft like the C130Hs 
and the fact that you have a different standard that is held 
toward the commercial aircraft that are stepping up.
    Do you think that the private air tanker industry can meet 
the need for 18 to 28 next gen air tankers with the 
specifications that the Forest Service has called for?
    Mr. Zerkel. Senator, given a specific defined requirement 
and a specific contractual procedure I have no doubt that 
industry can meet any requirement that the Forest Service might 
have for large air tankers.
    We have a large amount of experience. The industry has been 
at it for an awful long time, but the problem in the past has 
been a mixture and an undefined set of qualifications that 
industry faces. We're not going to spend a whole lot of capital 
if we don't know exactly what it is the Forest Service requires 
and for how long they require it.
    The Chairman. So you would not only need specific criteria 
for standards, although you are saying look, we just go by the 
FAA standards. You also need some definition in terms of how 
long that commitment from Forest Service would be to whether it 
is Lynden or other operators that would provide such aircraft.
    Mr. Zerkel. That's correct for the industry at large.
    First of all the range of tankers that they think they 
require. The 18 to 28 is a little difficult for industry to 
comprehend. Is it 18? Is it 20? Is it 25? Is it 40, which it 
was before 2002. So that's what I mean by defined set of 
requirements in terms of the numbers of large air tankers and 
then clear, concise contracting procedures.
    The Chairman. Just for the record, you had indicated you 
had stepped up to make the build out for your Hercules so it 
could meet the requirements that had been set forth by Forest 
Service, but because of tight timeframes, you were not accepted 
into that pool of eligible aircraft for contracting. What does 
it cost to basically outfit an aircraft to meet these standards 
in terms of investment that you made to prepare for this what 
was the commitment there? Because I understand now this 
aircraft is not even being used here in the country, and it is 
being used for fire fighting in Australia, I think you said?
    Mr. Zerkel. That's correct.
    Lynden spent about $4.5 million in the procurement of a 
retardant tank drop system, the installation and the training 
of our personnel to bid for that next gen 2.0 contract. We were 
not successful in the bid and maybe rightfully so because of 
one portion of our supplemental type certificate was 
incomplete. We accepted that. We're going to fix that, and we 
are going to bid at the next opportunity. But the point is that 
we have those requirements, all of industry, not just Lynden, 
not just any of the other ones.
    The Forest Service, under this program, the public format 
program, would not have that. They could basically do whatever 
they wanted to do. Now I'm not saying they wouldn't do a good 
job or the Coast Guard or a vendor or whatever that they get to 
do it wouldn't do a good job. But the fact is they don't have 
to whereas the rest of industry does. And it's--
    The Chairman. So it is--
    Mr. Zerkel. Yes.
    The Chairman. A different standard.
    Mr. Zerkel. Absolutely.
    The Chairman. Thank you.
    Senator Cantwell?
    Senator Cantwell. Thank you, Madam Chairman.
    I wanted to go back Chief Burnett and Mr. Wyss about the 
after effects because we are talking a lot here about obviously 
the economic loss of timber lands. But I am not sure we have 
given everybody a clear picture of how long it takes to 
recover. And one thing I mentioned earlier, the $300,000 from 
the Forest Service to help restore the impacts from the 
Wolverine fire-but can we talk about where we are one year 
after the Carlton Complex?
    Mr. Wyss. Sure.
    Senator Cantwell. And what we need to do and what happens 
when the money runs out? What happens? Chief Burnett, if you 
wanted to comment on that as well.
    Mr. Wyss. Okay.
    So one year after the Carlton Complex, I mean, we had $100 
million worth of damage in a community and a county that's the 
13th largest county in the United States and 39,000 people. So 
39,000 people are trying to dig out of $100 million hole.
    It makes it challenging when you lose 500 structures. Our 
community took a significant financial impact to the loss of 
value. 20 percent of our school district value is gone, 20 
percent of our hospital district value is gone, and that drives 
significant cost factors.
    When you lose 50 people out of the community in Pateros 
because 34 homes burned inside the city limits, you no longer 
have people paying into the water system and the water fees go 
up double because there's less people paying into the system 
and it has to be repaired.
    Our communities, our small businesses, when including in 
Chelan this year with the Wolverine fire in Chelan and the 
Reach fire, for 10 days were closed, completely. Our small 
businesses paid the credit card impact fees for the reservation 
in and the reservation out which are non-reimbursable.
    The communities and the small businesses who rely on 
tourism lost $1 million a day in the Winthrop and Twist area 
and $2.5 million in Chelan because the tourists were not 
allowed to come in because we were under immediate evacuations.
    When you look at the forestry and timber, the value of 
timber has dropped in half because the timber that was 
marketable burned and now there's limited market. When you burn 
200,000 acres last year and then 500,000 acres this year and 
then millions of acres in Alaska, the timber market starts to 
get pretty flooded with burned timber and you have to get that 
off within a short period of time before it blue stains.
    Then you look at our reservations where, you know, they're 
going to face 20 to 25 percent of their budget comes from 
timber and a billion dollar hole comes over a span. So our 
long-term recovery efforts are going to be 10 to 15 years in 
our small community to try to recover.
    For the rebuilding of homes and construction, only 40 
people qualified, who were the most needy of needy to have 
homes rebuilt by volunteers through the VOAD partners and the 
national VOAD partners in donations. So we have 11 of those 
homes completed and done, and we were thinking we were on the 
upward trend when this fire hit and we lost 100 more homes.
    So back-to-back impacts have really hit our economy hard, 
our budgets hard, our roads, our transportation and 
infrastructure, but not only that, we're going to suffer 
ramifications of unintended consequences with flood. We 
actually washed out a highway with just one inch of rain this 
last year because the trees couldn't absorb it, and we'll have 
it again this year with floods and snow pack.
    And we have 10,000 wildlife without a place to eat because 
we've burned all their habitat which then goes, Senator 
Stabenow talked about agriculture and Senator Cantwell you know 
we have the best apples and cherries in the world in our state. 
Well those deer eating the limbs and the buds off the trees 
which are impacting the agriculturalist's future because they 
don't have anything to eat.
    So our ramifications and long-term impacts are going to be 
felt for a number of years, and it's going to cause some of our 
folks to lose their businesses, their farms and ranches. And we 
will recover. I mean, that is my job as the lead recovery 
efforts, and we will do it. But we will come out of it 
stronger, more efficient and better.
    We just thank you, Senator Cantwell and Senator Murkowski, 
for holding these hearings to bring these issues to the 
forefront.
    Senator Cantwell. Mr. Burnett, did you want to say anything 
about, you had a concern about logs, potentially, you know, 
more trees falling and potentially putting more at risk in the 
future?
    Mr. Burnett. Right.
    As Jon was speaking that there is a lot of timber that's 
harvested afterwards. But back to the competing interests of 
how to best deal with the wildfires and post-wildfires there's 
a lot of logs that are not, a lot of standing timber, that is 
not allowed to be logged post-fire. And it creates a 
significant danger with hazard trees. We've lost many wildland 
firefighters from tree hazards.
    The burn scars area that we look at for trying to catch a 
fire, as an incident management team we'll look out ahead for 
any kind of natural barriers or manmade barriers. The natural 
barriers are, you know, rocks, trees, rivers or previous fire 
scars. If those previous fire scars are left untreated that is 
a hazard area that we can't send our fire fighters into in 
order to gain access to other areas or to fight the fire in 
that area.
    Senator Cantwell. Well Madam Chairman, thank you for this 
hearing. I want to thank all the witnesses, and obviously each 
of you have been dealing with this from one or more facets so 
we thank you for that.
    That is why, Madam Chairman, I want to work with you and 
see what we can do to move forward.
    I think the thing that might be different than some of the 
discussions that we have had before is the fact that, as Mr. 
Wyss said, the economic impacts here are something that we are 
going to feel for a long time. I think the threat that we see 
coming at us, that these are not the two worst years we are 
going to see, that the worst is still yet to come, I think 
demands us to think in new ways and figure out how to better 
prepare our nation for the economic, incredible economic, 
damage and loss that is going to occur and figure out a 
strategy for prevention and preparedness.
    So I look forward to working with you on that.
    The Chairman. Thank you, Senator Cantwell, and know that we 
both agree we have got a lot of work to do. I do think that we 
gained some good insight from the panel this morning and from 
the questions that were raised by other colleagues.
    You speak to the economic damage and the economic impact, 
post-disaster, post-fire, and you clearly have seen that in 
your state. Typically in Alaska we will see more acreage burned 
and very little lost in terms of property value. This year was 
different losing 55 homes in and around the south central area.
    I think that causes us to recognize that when we think 
about the economic impact, the loss, not only from a financial, 
but really from an emotional perspective is something that we 
need to be very, very cognizant of, but we also then need to be 
very wise, very smart and very strategic in how we manage these 
fires and finding these levels of efficiency because, as you 
and I both know, the Federal dollars here are not getting that 
much more generous.
    I know in my state we have made dramatic reductions in our 
state's budget this year which further restricts the ability of 
our state to be engaged. We need to be smart in how we are 
managing this, so to hear that we have assets that are either 
being held back or are somehow or other just not being as 
efficient as we need them to be, when you have agencies that 
are not coordinating, when you have differing standards, when 
you have inefficiencies that are built into this system, that 
is something that we can control.
    You and I cannot stop that fire today, but we can make sure 
that as we are dealing with these fires we are working smart 
and we are working efficiently and collaboratively.
    So I look forward to working with you and all of you.
    We appreciate the time this morning.
    Thank you.
    [Whereupon, at 12:16 p.m. the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------  
                              
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                              
                              

                     <all>
</pre></body></html>
